<html>
<title> - ABANDONED MINED LAND RECLAMATION NEEDS OF THE PENNSYLVANIA ANTHRACITE FIELDS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





 ABANDONED MINED LAND RECLAMATION NEEDS OF THE PENNSYLVANIA ANTHRACITE 
                                 FIELDS

=======================================================================

                             FIELD HEARING

                               before the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                    JANUARY 24, 2000, SCRANTON, PA.

                               __________

                           Serial No. 106-82

                               __________

           Printed for the use of the Committee on Resources


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
           Committee address: http://www.house.gov/resources

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
67-088 <l-ar/r-ar>           WASHINGTON : 2000





                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                NICK J. RAHALL, II, West Virginia
JIM SAXTON, New Jersey               EDWARD J. MARKEY, Massachusetts
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH-HAGE, Idaho          FRANK PALLONE, Jr., New Jersey
GEORGE P. RADANOVICH, California     CALVIN M. DOOLEY, California
WALTER B. JONES, Jr., North          CARLOS A. ROMERO-BARCELO, Puerto 
    Carolina                             Rico
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
CHRIS CANNON, Utah                   PATRICK J. KENNEDY, Rhode Island
KEVIN BRADY, Texas                   ADAM SMITH, Washington
JOHN PETERSON, Pennsylvania          CHRIS JOHN, Louisiana
RICK HILL, Montana                   DONNA MC CHRISTESEN, Virgin 
BOB SCHAFFER, Colorado                   Islands
JIM GIBBONS, Nevada                  RON KIND, Wisconsin
MARK E. SOUDER, Indiana              JAY INSLEE, Washington
GREG WALDEN, Oregon                  GRACE F. NAPOLITANO, California
DON SHERWOOD, Pennsylvania           TOM UDALL, New Mexico
ROBIN HAYES, North Carolina          MARK UDALL, Colorado
MIKE SIMPSON, Idaho                  JOSEPH CROWLEY, New York
THOMAS G. TANCREDO, Colorado         RUSH D. HOLT, New Jersey

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director





                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held January 24, 2000....................................     1

Statement of Members:
    Gekas, Hon. George, a Representative in Congress from the 
      State of Pennsylvania, Prepared statement of...............     8
    Holden, Hon. Tim, a Representative in Congress from the State 
      of Pennsylvania............................................    24
        Prepared statement of....................................    26
    Kanjorski, Hon. Paul K., a Representative in Congress from 
      the State of Pennsylvania..................................    19
        Prepared statement of....................................    22
    Sherwood, Hon. Don, a Representative in Congress from the 
      State of Pennsylvania......................................     9
        Prepared statement of....................................    11
    Staback, Hon. Edward G., a Representative in Congress from 
      the Commonwealth of Pennsylvania, Prepared statement of....    57
    Young, Hon. Don., a Representative in Congress from the State 
      of Alaska..................................................     1
        Prepared statement of....................................     5

Statement of Witnesses:
    Blanchard, Mary Josie, Assistant Director, Office of Surface 
      Mining, U.S. Department of the Interior....................    31
        Prepared statement of....................................    33
    Campbell, Bradley M., Regional Administrator, Environmental 
      Protection Agency, Region III..............................    41
        Prepared statement of....................................    43
    Carlo, Laure, Legislative Assistant..........................    55
    Dolence, Robert, Deputy Secretary for Mineral Resources 
      Management Pennsylvania Department of Environmental 
      Protection.................................................    49
        Prepared statement of....................................    51
    Donlin, David A., President, Economic Development Council of 
      Northeastern Pennsylvania, Executive Director, Schuylkill 
      Chamber of Commerce........................................   109
        Prepared statement of....................................   111
    Hughes, Robert, Eastern Pennsylvania Coalition for Abandoned 
      Mine Reclamation...........................................   151
        Prepared statement of....................................   154
    Klemow, Kenneth M. Ph.D., Certified Senior Ecologist and 
      Botanist, Professor of Biology, Wilkes University..........   124
        Prepared statement of....................................   127
    McDade, Joe, Prepared statement of...........................    16
    McGurl, Bernard, Executive Director, Lackawanna River 
      Corridor Association.......................................   114
        Prepared statement of....................................   117
    Rogers, Alex E., the Upper Susquehanna-Lackawanna Watershed 
      American Heritage Rivers Initiative, and the Pennsylvania 
      GIS Consortium.............................................   138
        Prepared statement of....................................   140
    Skrip, Andy, Vice President, Scranton Chamber of Commerce....    95
        Prepared statement of....................................    99


 
 ABANDONED MINED LAND RECLAMATION NEEDS OF THE PENNSYLVANIA ANTHRACITE 
                                 FIELDS

                              ----------                              


                        MONDAY, JANUARY 24, 2000

                  House of Representatives,
                                    Committee on Resources,
                                                      Scranton, Pa.
    The Committee met, pursuant to notice, at 12:30 p.m., in 
the Collegiate Hall Room, Redington Hall Building, University 
of Scranton, Scranton, Pennsylvania, Hon. Don Young (chairman 
of the committee) presiding.
    The Chairman. The meeting will come to order. Please take 
your seats.
    The Committee on Resources is meeting today under its 
oversight jurisdiction to take testimony on the subject of mine 
land reclamation needs of the Pennsylvania anthracite fields. 
Congressman Don Sherwood of the 10th District, a valued Member 
of the Committee, has graciously hosted our visit to this 
historic region. I'd like to thank the University of Scranton, 
as well, for making this venue available to us, and the efforts 
of all involved today to coordinate our tour we had this 
morning.
    Seeing with my own eyes the magnitude of the environmental 
impacts of the unreclaimed coal mines and the facilities of 
this area will help guide my understanding of the testimony 
which we are about to hear.
    I understand that this great coal-bearing region was where 
our Nation's industrial revolution first took hold. Some 7 
billion tons of hard coal had been mined from Eastern 
Pennsylvania since 1769--and that estimates are about 20 
billion tons remain in the earth here. Furthermore, my 
understanding is the demand for your coal gives way as 
bituminous coal elsewhere was found to be more economic to mine 
in those areas.
    For many decades the hard coal from the Lackawanna Valley 
and nearby fields fueled the forges of our Nation's industry, 
fired the boilers of our locomotives and heated many homes and 
took care of the barge and railroad network which grew up here 
for the coal market. It's your historical legacy and one in 
which I am sure the folks of Scranton and Eastern Pennsylvania 
are quite proud and rightly so.
    Unfortunately, there is an environmental legacy that 
followed from your industry, as well. The hard coal was mined, 
broken and shipped under few regulations then, but the 
environmental consequences of these practices did not really 
hit home until our Nation became wealthy enough to afford a 
clean and safe environment.
    I was in my third term in office when Congress enacted the 
Surface Coal Mining Reclamation Act of 1977. This law made it a 
national policy to require more stringent regulations of active 
coal mining and required reclamation plans backed up with 
financial guarantees to ensure the restoration. The feds 
stepped in because it was widely perceived that the states were 
lax in their own regulations out of concern that the operator 
would simply move if the rules were too tough in their states. 
The states were allowed to seek enforcement practices under the 
new Federal agency and the Interior Department, the Office of 
Surface Mining but the feds were there to oversee the state 
need to commit them to the task.
    This is all well and good for active operations, but the 
Congress decided that mining disturbance made prior to 1977 
ought to be reclaimed too and recognized in many cases the 
former operator had no obligation under state law to do so. 
Thus, the Abandoned Mine Land Reclamation Trust Fund was 
established to create a funding source to begin to tackle this 
problem and a delivery mechanism to get the money out for on-
the-ground remediation.
    Congress estimated that 15 years of the AML fee levied on 
every ton of coal mined in the county would provide the 
necessary funds. In 1992 we extended this fee collection 
through Fiscal Year 2004 and provided the trust fund to earn 
interest with a diversion of a portion of the interest into the 
health benefits fund for retired coal miners and their 
dependents.
    During debate on the establishment of the AML funds, many 
states were concerned that the producers would pay into the 
fund for reclamation projects elsewhere so Congress obligated 
by guarantee that every AML dollar collected from active 
producers within a state--50 cents would be dedicated within 
the fund for ultimate appropriations back to that same state. 
The remainder would be known as the secondary share to pay for 
Federal emergency programs and additional grants to states 
based upon their historic production. Western members 
understood this would be a net transfer of funds from the coal 
states to the West, Wyoming, Montana, Colorado, Utah and New 
Mexico, but this was the compromise that was reached.
    So what is the problem? Why are we here today? Well, like 
the Federal Highway Trust Fund which grew fast from gasoline 
taxes levied for years, which were not sufficiently 
appropriated back for more roads and bridges, the AML fund too 
was used to disguise the true size of the Federal operating 
budget deficit for many years. OSM would collect the AML fees 
and send it to the Treasury but our budget enforcement rules 
kept both the Congress and the President from spending on 
reclamation that is about half of what had been collected each 
year. Instead, an IOU went to the treasury but the real money 
went to pay for the Government program that lacked a dedicated 
funding source. So the states who had been promised a return of 
at least half of their collection had to wait and frankly are 
still waiting.
    OSM records indicate that approximately 49 million dollars 
worth of IOUs to Pennsylvania are in the AML fund, the state's 
share balance, which doesn't take into account the funds which 
your commonwealth is destined to receive from the historic 
production factor in the secondary share.
    For comparison purposes, I note that the state with the 
most to complain about is Wyoming because the Governor is 
sitting on 258 million dollars of its guaranteed share. Please 
remember that the interest earned on the AML fund balance goes 
into the secondary share and not the state's so that the 50 
cents on the dollar promised to states is more like 40 cents or 
less by the time the states see it.
    Frankly, another broken promise to the states has been the 
Land and Water Conservation Fund of 1965, in which the Federal 
Government dedicated 900 million dollars of annual out 
continental shelf oil and gas royalties to efforts for 
conservation of environmentally sensitive lands, half to 
Federal agencies and half to the states. However, the budget 
priorities have seemed to prevent full funding of this program 
and often no significant funding for state grants at all.
    But there is hope. The Conservation and Reinvestment Act of 
2000, which I am the sponsor of and negotiated a fair amendment 
with the ranking Democrat of my Committee, Congressman George 
Miller of California, would put an end to such broken promises. 
If enacted, H.R. 701 will ensure that 3 billion dollars per 
year of the 6 billion dollar annual OCS royalties collection 
flows to the seven conservation programs in this bill. 
Pennsylvania would see nearly 50 million dollars each year, 
much of it to be managed directly by your Governor and 
legislature and the remainder by Federal agencies operating 
within the commonwealth's boundaries.
    I am not suggesting that Pennsylvania's entire share should 
be dedicated to AML. We will hear some other ideas today. 
Indeed, there are constraints as to how the states may spend 
their funds within several of these programs, but very frankly 
Pennsylvania might decide to spend some of this money in 
solving some of the reclamation priorities.
    My bill has been heard, debated and passed out of the 
Resources Committee, awaiting action by the full House of 
Representatives. I am proud to report that Don Sherwood joined 
with me in supporting the amended bill adopted in a strong 
bipartisan fashion last November. Likewise, Governor Tom Ridge 
has written to us with his support for CARA. Both these 
gentlemen understand that for too long we have passed 
legislation authorizing programs which ultimately lack the 
needed funding.
    Other legislative fixes for abandoned mine land restoration 
efforts, including those in Pennsylvania, must not suffer the 
same fate. Today's record will be compelling, I am sure, from 
the testimony of the witnesses who will appear, for freeing up 
AML trust funds owed to the commonwealth, as well as 
establishing a need for some funding mechanism beyond 2004. But 
let's not lose sight of where the money comes from and 
recognize it will be a battle to be sure because frankly other 
states will demand the money but this area deserves it because 
of historical value.
    I want to thank all of you, my staff, Mr. Sherwood for 
hosting this while the Committee holds this hearing in 
Scranton. Before I turn over the opening statement of Mr. 
Sherwood, I'd like to make note that our present colleague 
George Gekas from the 17th District of Pennsylvania has talked 
to us many times on this subject, as far as reclamation--is 
unable to join us today. He has contacted me regarding this 
important issue, as I mentioned before, as late as last night. 
I now would like to recognize my good friend, a member of the 
Committee, for an opening statement and then we will have our 
first panel up. I'd like to recognize Congressman Don Sherwood 
for his statement. Mr. Sherwood.
    [The prepared statement of Mr. Young follows:]
    [GRAPHIC] [TIFF OMITTED] T7088.001
    
    [GRAPHIC] [TIFF OMITTED] T7088.002
    
    [The prepared statement of Mr. Gekas follows:]
    [GRAPHIC] [TIFF OMITTED] T7088.003
    
    Mr. Sherwood. Good afternoon. First, I'd like to thank my 
chairman, Don Young, for agreeing to hold this extremely 
important hearing to focus the Resources Committee's attention 
on the challenges still facing the anthracite region of 
Pennsylvania in reclaiming our land and water.
    This morning Chairman Young agreed to go to fly over some 
of the abandoned mine sites to view first-hand the culm piles, 
the acid mine drainage and the open strip-mine pits that are 
all too familiar to those of us whose home is in Eastern 
Pennsylvania--and I think it made an impact. Thank you again, 
Chairman Young, for your interest.
    I'd also like to acknowledge my colleagues in the House, 
Congressman Paul Kanjorski and Tim Holden, who will both 
testify today, and Congressman George Gekas, who has submitted 
a statement for the record. Thank you, Congressmen Kanjorski 
and Holden, for your determination and hard work to elevate 
this discussion and to focus Washington's attention on the 
unmet reclamation needs of the anthracite region. I believe 
that by continuing to work in a bipartisan manner, we will 
prevail in creating greater awareness and national interest in 
reversing the scars of coal mining.
    Last but not least, I want to thank all of the witnesses 
who have agreed to testify today. I want to mention in 
particular Andy Skrip from the Scranton Chamber of Commerce and 
Bernie McGurl from the Lackawanna River Corridor Association, 
who live and work here in the 10th District and bring their 
many years of experience to the discussion.
    I also am happy to mention that former Congressman Joe 
McDade, who I wanted to testify, has sent us a statement but he 
just couldn't be here in person. Mr. McDade worked very hard 
over his 36 years in Congress to improve the lives of 
Northeastern and North Central Pennsylvanians. But he also 
knows that there's a long way to go. He wanted me to thank you, 
Chairman Young, for making this a priority for the Resources 
Committee and for inviting him. Joe will submit a statement, 
and I have it here, which I am sure will shed some valuable 
light on this problem.
    The Chairman. Without objection, so entered.
    Mr. Sherwood, thank you. As we hear the witnesses today 
recount the history and the subsequent demise of anthracite 
coal mining and the current efforts to reclaim the use of the 
lands and waters polluted by it, I believe that similar themes 
will be recounted by many of us. Anthracite coal literally and 
figuratively fueled the industrial revolution and helped us to 
win two world wars, but in the process the coal mining 
devastated the landscape to such a degree that it will take 
decades to restore at the current rate.
    The Abandoned Mine Land Trust Fund is not being used in its 
entirety to fund reclamation activity and it should be. As any 
economic development person will tell us, Northeastern 
Pennsylvania is greatly hindered by the existence of these 
unreclaimed sites. A new industrial plant or a new firm--when 
the CEO of a new firm who is interested in our area comes and 
looks it over, they often decide that they do not want to 
locate their new plant in sight of the ravages of past mining. 
That has been a fact that has hindered our development.
    All of these statements are considered true by interested 
groups, environmentalists, lawmakers, business people, 
academics and government experts. What's not so easy to come to 
agreement on is how to accelerate the cleanup. Do we increase 
funding for reclamation? Do we rely on technology to increase 
the speed and efficiency of the cleanup? Do we enhance existing 
programs to coordinate the reclamation efforts? Or do we create 
new programs? And we will hear various ideas today.
    My inclination is that the answer lies in some combination 
of better technology, increased funding and a heightened 
interest and awareness nationwide. The purpose of this hearing 
is both to focus the attention of the Congressional Committee 
overseeing abandoned mine reclamation on the magnitude of the 
problem and to begin to create a consensus about answers to the 
questions that we have posed. What can we do to make things 
better? The people of the anthracite region are ready and more 
than capable of making things better, but we need some 
concerted help from our government, the business community, 
academics and environmental groups.
    What's often lost in the discussions and debates about the 
legacy of coal mining and its environmental impact is the pride 
of the people in the region in the accomplishments of their 
family members who worked in the mines. Chairman Young today 
has already gone a long ways in acknowledging the nationally 
significant impact of the coal mining heritage by allowing my 
bill to recognize the Lackawanna Valley as a national heritage 
area to move forward in his committee.
    Mining has provided steady work and a chance to fulfill the 
American dream for over a century for immigrants wanting a 
better life. This legacy endures in the work ethic and the 
tenacity of Northeastern and Central Pennsylvanians. Even 
though anthracite coal mining created substantial adverse 
environmental impacts to our area, it also greatly contributed 
to the current prosperity of our country. Now it's payback 
time. If we can tap into that prosperity and harness the 
ingenuity, the work ethic and the tenacity of the people of the 
region to figure out how to solve the problem, I have no doubt 
that it will be solved. The wealth that was created by mining 
anthracite coal in Eastern Pennsylvania is gone but the scars 
remain. Today is our day to start the process to correct that.
    I look forward to hearing the witnesses' testimony and 
thank you again for taking the time to be here.
    [The prepared statement of Mr. Sherwood follows:]
    [GRAPHIC] [TIFF OMITTED] T7088.004
    
    [GRAPHIC] [TIFF OMITTED] T7088.005
    
    [GRAPHIC] [TIFF OMITTED] T7088.006
    
    [GRAPHIC] [TIFF OMITTED] T7088.007
    
    [The prepared statement of Mr. McDade follows:]
    [GRAPHIC] [TIFF OMITTED] T7088.008
    
    [GRAPHIC] [TIFF OMITTED] T7088.009
    
    [GRAPHIC] [TIFF OMITTED] T7088.010
    
    The Chairman. I thank the gentleman. A few ground rules for 
the witnesses that will appear. I run a fairly tight ship. I 
say fairly because I used to be in that business of a very 
tight ship. I will be under the 5-minute rule and don't be 
offended because your written testimony will be put into the 
record, the full content. And I say that at every hearing that 
I conduct because I think it's no more than fair to address the 
witnesses that are going to be here. I might allow a little 
latitude to my colleagues because politicians have a tendency 
to talk too much anyway but not too much--let's put it that 
way.
    But with saying that I would like to call at this time Paul 
Kanjorski of the U.S. Congress and the Honorable Tim Holden, 
from Pennsylvania 11 and Pennsylvania 6. I guess that means the 
Districts 6 and 11. Am I correct?
    Mr. Sherwood. That's correct.
    The Chairman. See, I don't have that problem. I've got just 
one big district. With that I'd like to have, Paul, you start 
the testimony out and then we will have Tim and then if we have 
some questions, hopefully you'll be available to answer them. 
Paul.

STATEMENT OF THE HONORABLE PAUL K. KANJORSKI, A REPRESENTATIVE 
           IN CONGRESS FROM THE STATE OF PENNSYLVANIA

    Mr. Kanjorski. Mr. Chairman, thank you very much. I've had 
the pleasure of being in your lovely state so I know you're a 
key person who flying over the beauty of Northeastern and 
Central Pennsylvania appreciate what devastation has occurred 
because of past practices. And I don't want to spend my time on 
reiterating a great deal of Mr. Sherwood's statement because 
all of it is correct. We know where we are and I want to thrust 
some of the ideas that we have as to what we can do to help 
cure the problem.
    First and foremost, let me put it into context. Although 
Mr. Sherwood, Mr. Holden and I--ever since we've come to 
Congress and long before--have been heavily involved in 
economic development and restoration of the coal lands of 
Northeastern Pennsylvania, it really wasn't until this summer 
when I flew across the country with the President and went to 
various economically distressed areas--in discussions that 
night, the President said see if you can find any commonality 
in these areas and then come up with some demonstration ideas 
of what we could do.
    And over the course of that week I gave it a great deal of 
thought and almost every airway we went to, from Nazareth, 
Kentucky, to the Black Hills of South Dakota to the ghettos of 
Los Angeles, they all reflect a certain commonality in that 
they suffer from an inferiority complex as a result of some 
material lacking, either in the environment or in the basic 
necessity of educational level of the population or something--
or the loss or lack of investment capital. All of these areas 
have substantial deficiencies unaddressed and undirected to, 
regardless of what we do beside that. We really can't start to 
move these distressed areas.
    And I was particularly struck that clearly in Northeast and 
Central Pennsylvania through the years of endeavors of Members 
of Congress, like Dan Flood and Joe McDade and many of my 
present colleagues, we've made strides and Northeastern 
Pennsylvania is better off today than it's ever been 
economically in my lifetime. But we aren't getting there and we 
can't get there for a simple reason and that is our environment 
both land and water was so materially devastated by past 
practices that there seems to be an inferiority complex locally 
among the citizenry that they can't expect or exact excellence 
either from government or from business or from themselves in 
their communities, and second that we just can't correct the 
things ourselves and therefore we're not going to get to the 
level of average middle class economic existence in this area 
of the state. I think the resolve of how to address that has 
been handled. A lot of positive past legislation that clearly 
has failed.
    The Office of Surface Mining I think will testify--or 
certainly in my discussions with them, they know that what 
presently exists is not nearly enough, is not properly funded 
by the Congress, is not executed by the Administration 
regardless of what Administration it is, to get this job done.
    In reality, Mr. Chairman, you put your finger on our 
problem. This is not something that can be afforded on a year-
to-year appropriation basis because regardless of how high at 
any one significant time people of this country focus on an 
environmental problem of this nature, you can't sustain that 
focus over the years necessary to make the major improvements 
and investments necessary to recover. So as a result even if we 
increase the mine fund, even if we challenge more of the mine 
money for a few years, that would be perfectly good. Changes in 
the political structure of the country and the attention of the 
country would deplete the attention and focus on this 
particular area or other coal lands in the country.
    So what I prepared at a request of the President was a memo 
of how we could demonstrate what we could do not only in 
Northeastern and Central Pennsylvania but some of the other 
waste coal lands across the country which are quite significant 
but nothing quite to the extent of the anthracite field. So 
first we isolated a field that we could do a demonstration 
project in and that's clearly the anthracite field. It's 
contained in only 12 counties of Eastern Pennsylvania, no where 
else in the country except a little smattering of anthracite 
coal in your home state. It was the early material and there is 
not the capacity to get the local community to support or pay 
for the recovery program on a very simple basis; they didn't 
cause it, they didn't benefit from it and if they pay for it 
they'll not reap the benefits in their lifetime because it 
won't be completed for 25, 30 years so there's no incentive for 
the local community to tax themselves and assume that burden.
    And I may say in defense of the coal mining industry across 
the country, as we look at the legislation of this new fund, it 
is rather harsh to create a tax that makes it uneconomical for 
these companies to exist today to pay for a process that they 
did not cause, they did not benefit from and they will not 
benefit in the future from and yet we're doing that. By putting 
a tax on coal in Montana or in Wyoming, we're basically saying 
you're paying back for something that a coal operation long 
gone in Eastern Pennsylvania has caused.
    Now, what--the approach that I gave to the President was 
simple, to get a demonstration project, identify our 12 areas 
and then find a financing vehicle that could allow us to have a 
certainty of money so that we could plan, design and implement 
all in a period of 20 or 25 years and we would know for certain 
and never have waste or overlap of the process. We have started 
on that. We now have underway a GIS system which will encompass 
3,000 square miles of Eastern Pennsylvania in the most 
sophisticated GIS system available, making it much more 
efficient and cost wise much lower to examine and engineer the 
land recovery program. That's already started, enacted by 
Congress, undertaken by the Core of Engineers, EPA and other 
agencies of the Federal Government so that within 2 years we 
will have the most sophisticated GIS system to make the 
recovery possible of the land and the water.
    The next problem however is the Office of Surface Mining. 
Regardless of how many allocations--if we double the 
allocations of 9 million to 18 million dollars, it's a 
pithering of what we need. It would take us 100 to 150 years at 
that rate to make a recovery. So what I've suggested in my 
proposal is to create tax credits by the Federal Government to 
independent bond holders--and I've had the insurance industry 
show great interest to buy these bonds if they are structured 
the way we've been designing them over the last several months, 
and that is to have the Federal Government through the 
Secretary of Interior or Secretary of the Treasury authorize an 
authority created by the State of Pennsylvania to issue 1.2 
billion dollars in bonds, and it's in lieu of paying interest, 
to allow the buyer of those bonds to take a Federal tax credit 
of whatever the municipal tax rate is at that time at the sale 
of the bonds. It would cost the loss of revenue to the Federal 
Government of somewhere around 50 million dollars a year for 30 
years and the bond issue will be paid off in a self-created 
sinking fund. So the entire investment of the Federal 
Government to accomplish this end would be approximately 1.5 
billion dollars.
    By building the mechanism of arbitrage with--the money 
actually would be about 2.4 billion dollars that would be 
available for expenditures, almost 100 million dollars a year 
in a well-conceived plan with proper financing under anthracite 
bonds or other type bonds with Federal tax credits, we could 
bring back this area both economically and environmentally to 
the stage that it was in that we could all make the speech some 
day that we had a dream and the fact is the dream would be that 
we recovered our land back to the status and the way it existed 
when the Indians first settled this area. Thank you, Mr. 
Chairman.
    The Chairman. Thank you, Paul, for a very eloquent 
statement. Tim.
    [The prepared statement of Mr. Kanjorski follows:]
    [GRAPHIC] [TIFF OMITTED] T7088.011
    
    [GRAPHIC] [TIFF OMITTED] T7088.012
    
  STATEMENT OF THE HONORABLE TIM HOLDEN, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF PENNSYLVANIA

    Mr. Holden. Thank you, Mr. Chairman. I would like to thank 
you for holding this hearing and I'd also like to thank Mr. 
Sherwood for hosting us here in Lackawanna County and his 
leadership on this issue as well as my good friend Congressman 
Kanjorski.
    Mr. Chairman, I have a statement that I will submit for the 
record to avoid being redundant. I'd just like to briefly 
summarize it. But quite frankly, Mr. Chairman, you summarized 
my statement when we were flying in the helicopter earlier 
today. When we came into Schuylkill County and we were over 
Mahanoy City and Shenandoah and Girardville, as we looked out 
at all the coal operations that are currently working and ones 
that have been abandoned, you looked at me and you said, wow, 
we have a lot of work to do and we certainly do have a lot of 
work to do.
    As sons of the coal region we are all proud of what a great 
interest that we had in developing the Industrial Revolution in 
this country, how we fought two world wars that was fueled by 
anthracite coal, as Mr. Sherwood mentioned. We are all proud of 
that. But what has been mentioned, there has been some very, 
very unfortunate consequences and as a result of that we are 
left with scarred land that makes it very, very difficult for 
our economic development people to attract industry or convince 
industry to expand and also that our environmental problems 
with our rivers and our streams and the acid mine drainage that 
we had a chance to see first-hand.
    I believe in Lackawanna County I think that was that we 
could see that the water was basically orange as we looked out 
the left side of the aircraft and as we looked to the right it 
was of course blue. So again there are very, very tremendous 
problems that we are facing and it has been something that has 
been going on for well over a hundred years in this part of 
Pennsylvania. Federal and state laws came into effect I believe 
in the mid 70's to late 70's and since that time we've been 
able to reclaim land but there was a hundred years of damage 
that was done before that. We do not want to interfere with 
commerce or any of the production that is going on in 
anthracite currently.
    I think that there's a need to look for alternatives of 
anthracite coal. I know Paul Kanjorski and myself are 
constantly doing that and there are several plans we are 
looking into but we need to clean up what was done before the 
Federal and state government stepped up to the plate and did 
the right thing. So Congressman Kanjorski has put forth a plan 
that I've looked at very closely and I think it has merit and 
it certainly should be part of the discussions.
    There are other vehicles that we also need to explore, and 
you mentioned it in your opening statement, Mr. Chairman, how 
the Abandoned Mine Trust Fund is being used for other 
Government expenditures and Government operations just as the 
Highway Trust Fund was used. We were able to correct that and 
we need to do that with the abandoned mine trust fund also.
    So with that, Mr. Chairman, I want to again thank you for 
holding this hearing and look forward to the testimony this 
afternoon.
    The Chairman. Thank you, Tim. Do you have a written 
statement you are going to submit for the record?
    Mr. Holden. Yes.
    The Chairman. Without objection, so entered.
    [The prepared statement of Mr. Holden follows:]
    [GRAPHIC] [TIFF OMITTED] T7088.013
    
    [GRAPHIC] [TIFF OMITTED] T7088.014
    
    [GRAPHIC] [TIFF OMITTED] T7088.015
    
    The Chairman. I'd just like to remind Paul we haven't 
addressed one issue that--I don't know how we're going to get 
around it--with your bonds issue, it would probably not come 
under our jurisdiction and that probably goes to Ways and Means 
and that's something we will have to figure out how to do 
because they're not inclined sometimes to do such things.
    Mr. Kanjorski. Mr. Sherwood has been talking with the House 
leadership and there seems to be some indication and a 
willingness to certainly seriously look at it but this 
Committee will have jurisdiction over the second part of the 
idea, the process of creating a specific Federal corporation 
for administration. Our problem has always been institutional 
members, Mr. Chairman. None of us will be here 25 or 30 years--
either hopefully we will be on the face of the earth but we 
probably won't be in office.
    The Chairman. I am not going anywhere.
    Mr. Kanjorski. We need a special structure and we have 
suggested a trust be established as a very lean and mean 
organization to make sure everybody does what they can do and 
bring all the parties, Federal, state, county, local and 
business community, together to accomplish that and keep it 
together.
    The Chairman. You mentioned bonds. Have you explored the 
concept of the state issuing the bonds with a Federal 
guarantee?
    Mr. Kanjorski. Well, actually an authority bond. The state 
has an authority's act and it allows the various counties to 
get together and form a municipal authority, multi-county in 
size, and then the Secretary of the Treasury or the Secretary 
of Interior would empower that authority under certain 
conditions that would be expressed in the indenture to issue 
those bonds with a Federal tax credit. We have done that.
    There is one example of school bonds that are presently 
being done by the Federal Government for that purpose. The 
President has made the suggestion of Better America Bonds for 
green ways. It's the same type of funding mechanism. But what 
it allows us to do, it's really creating within our non-capital 
budget structure a capital budget rather than relying year to 
year on appropriations and authorizations that tend to go up 
and down with economics and with politics. But to do long-term 
planning and long-term implementation of that planning, it is 
not the most effective and efficient way to accomplish the end 
of something that is large, 120,000 acres, 3,000 square miles, 
to attend to.
    The Chairman. I can tell you that one of the things both of 
you mentioned that pleases me is that you're not trying to 
punish the industry or what's left of it, although we do have 
the Super Fund and in the Super Fund we do punish industries 
that had nothing to do with the problems that happened a 
hundred years ago. So I am pleased to hear you say that because 
this is a very tenuous market right now. The price is not good 
and I am glad to hear that the present miners following the 
rules are not being punished for what was done. Actually, the 
most damage was probably done during World War II.
    And we ought to make an issue of that, too, by the way, 
Don. When you think about it, this area has built the tanks and 
built the military might that defended this country in one 
major war on two different fronts and that should be something 
we can sell as part of the problem. Coal was mined very rapidly 
to fill furnaces and build those hard-shell tanks and 
everything else was done because we were at conflict. A lot of 
things we do in war we wouldn't do ordinarily so that's one of 
the major problems. I don't have any other questions at this 
time. Mr. Sherwood.
    Mr. Sherwood. Well, I listened with interest to both and 
they outlined the problem very well. And with Paul's bonds, we 
just have to see if that's an issue that can be worked through 
Ways and Means and that we can get people's attention on. And 
it's intriguing in that it doesn't require an appropriation. It 
just requires the Government to decide that we are willing to 
forgo the interest that those bonds would normally pay and then 
make fiduciaries like insurance companies would pick them up so 
if it's a 1.2 million dollar issue that would normally pay a 6 
percent tax free and that's how you come up with 
approximately--or 50 million dollars a year in deferred revenue 
to the Government. It's a very interesting idea and we will 
have to work it through.
    The Chairman. I would like to ask one other question and 
maybe a couple more. You've stated, Paul, your frustration with 
Federal rules contracting out grants, funds, et cetera. Have 
you discussed this with the Administration about any ideas how 
to streamline the process? You heard me today on the 
helicopter, I've been so frustrated in my state with the money 
that's dumped into the agencies that never gets to the ground.
    Mr. Kanjorski. Absolutely. Mr. Chairman, that's why we're 
suggesting the corporation, just to remove it from the 
bureaucracy and allow an administrator appointment by the 
President and confirmed by the Senate, to have a very lean and 
mean organization of 25, 30 people with the purpose of 
oversight, direction and assistance but not to manage it. Let 
it be managed on a local level.
    We've got some already good examples of organizations that 
are taking on earth conservancy in my district. That's 17,000 
acres of land that they've been making restoration on for about 
5 years now, very efficiently, every effectively at about half 
of the cost of what the Federal Government normally spends for 
that type of process.
    Second, you want to encourage local planning and 
participation, how the land will be used, what it will be done 
for, and to help plan out the use of that long into the future. 
This should not be a top-down project of the Federal 
Government. This should be locally--how we can help is to 
provide the security that the financing will be in place to 
implement the final plan. But let the localities, the 
communities and the state decide their plans in the various 
areas, go about it and do it in a very efficient way and allow 
them even to operate countercyclically; that when unemployment 
goes up that they can put a fence in the field but when we're 
in a high type point like this, let's not be counterproductive 
to the business community.
    Mr. Sherwood. Paul, have you thought about Section 148 in 
the IRS Code which I am familiar with from school district 
bonds? We're not allowed to earn arbitrage and arbitrage is one 
of the main features of your plan. How do we get around that?
    Mr. Kanjorski. OK. I've been meeting with Gene Spurling at 
the insistence of the President and with Treasury officials and 
we already have some very strong indications of a willingness 
to allow arbitrage to a much longer period of time than it is 
in existence but I still think we should take it out 20, 30 
years. I think we can get an accomplishment of that because as 
long as the arbitrage funds go for the intended purposes, 
there's no abuse of that authority and that's exactly what we 
do. All this money in the bond issue as arbitrage would be 
returned back and paid up--the long-term end sight of the 
reclamation work.
    Mr. Sherwood. I understand its use but that means we have 
to have a policy change, a new ruling.
    Mr. Kanjorski. No. Actually, in the enactment of the bond 
itself we can accomplish that. It's very simple. If we left it 
out entirely, we would have the right to arbitrage indefinitely 
but we can waive this particular provision or put in a special 
provision for arbitrage.
    The Chairman. Now I'd like to call up the second panel, 
Mary Josie Blanchard, Assistant Director, Office of Surface 
Mining, U.S. Department of Interior; Brad Campbell, who had the 
pleasure of riding with us today on the helicopter, from the 
Environmental Protection Agency, Region III; Robert Dolence, 
Deputy Secretary of Mineral Resources Management, Pennsylvania 
Department of Environmental Protection; Laure Carlo, 
Legislative Assistant, the testimony for Edward Staback, House 
of Representatives, Commonwealth of Pennsylvania. I'll tell you 
what we're going to do, is I call out Mary Blanchard, you are 
up first. You are recognized for 5 minutes.

 STATEMENT OF MARY JOSIE BLANCHARD, ASSISTANT DIRECTOR, OFFICE 
       OF SURFACE MINING, U.S. DEPARTMENT OF THE INTERIOR

    Ms. Blanchard. Thank you, Chairman Young, Representatives 
Sherwood, Kanjorski and Holden. My name is Mary Josie 
Blanchard. I am the assistant director of the office of 
surfacing mining. With me today is Bob Biggie who is in charge 
of our Harrisburg field office and Gene Krueger who's in charge 
of our division of reclamation support.
    On behalf of Director Karpan and Secretary Babbitt, we 
appreciate the opportunity to appear here in Scranton before 
the Committee on Resources regarding abandoned mine land 
reclamation in the anthracite region of Pennsylvania.
    The abandoned mine land program does three things. It 
removes health and safety detriments, it improves the 
environment and it restores resources to make available for 
economic development. When the lands and waters are restored, 
jobs are created, the infrastructure can be improved, 
individuals can develop a sense of pride in their community and 
the stage can be set for economic growth.
    As you know, coal operators pay a fee to the abandoned mine 
land fund to reclaim and restore areas affected by past mining. 
In total the industry has paid approximately 5 billion dollars. 
Through Fiscal Year 2000, Congress has appropriated 4.2 billion 
for the purposes of reclaiming land and water. Once funds are 
appropriated then OSM grants money to the states and tribes 
based on an established formula.
    For the last several years, Pennsylvania has received 
approximately 24 million dollars a year. For Fiscal Year 2000, 
the abandoned mine land grant will be 26.6 million dollars; the 
largest grant to any state. Once a state receives its abandoned 
mine land funds then the state sets the priorities on the 
funding for the specific reclamation sites.
    Abandoned mine land problems are found nationwide but are 
highly concentrated in Appalachia. According to the information 
in the abandoned mine land inventory system, the cost of 
reclaiming Pennsylvania's inventory of sites would be 4.9 
million dollars. Of that, anthracite's region claims 
approximately 1.9 billion dollars. Almost half of these costs 
are associated with acid mine drainage.
    To deal with the number-one water quality problem in 
Appalachia, acid mine drainage, OSM created the Appalachian 
Clean Streams Initiative in 1995. Under this initiative the 
Office of Surface Mining provides grants to states to attract 
funds from other public and private organizations for restoring 
streams with acid mine drainage. The combined effort magnifies 
the effectiveness of any one group of funds.
    Pennsylvania receives approximately 1.7 million annually in 
clean streams funding, which is more than any other state. An 
example just right here is in McDade Park where the clean 
streams initiative will restore Lucky Run. As part of the clean 
streams initiative, OSM began the Watershed Cooperative 
Agreement Program last year with local nonprofit watershed 
organizations that are already improving the water quality in 
their own communities. In fact, one of the first cooperative 
agreements was for the Carbon Run site in Northumberland 
County. Funding of 22 thousand dollars will be used to install 
a passive treatment system to reduce iron loading in Carbon 
Run.
    In order to proceed more quickly with reclamation work, in 
1990 the Administration proposed an increase in appropriations 
such that by Fiscal Year 2003 it is hoped that appropriations 
would equal revenues from the fee on coal production. As a 
first step toward that goal, the Fiscal Year 2000 budget 
proposed 211 million AML appropriation which would have been a 
25 million increase over Fiscal Year 1999. The final AML 
appropriation for Fiscal Year 2000 dollars is 196 million, 
which is a 10 million dollar increase over the previous year 
funding. The Administration is committed to increasing the AML 
appropriations because it would be tangible economic and 
environmental benefits in a short period of time.
    In summary, a core mission of OSM is the reclamation of 
land and water damaged by a century of coal mining activities. 
Nowhere is that legacy more evident than in the anthracite 
region of Northeastern Pennsylvania. EW Technologies in 
mapping, treating abandoned mine lands and waters are providing 
better and more efficient treatment each year. Yet, after a 
century of cumulative pollution, there is still much work to be 
done. We are committed to finding better and more effective 
ways to restore land and water to productive use. We should 
appreciate the opportunity to appear before the Committee, 
especially here in the anthracite region of Pennsylvania, and 
to testify on this issue. Thank you very much.
    The Chairman. Thank you very much. Brad.
    [The prepared statement of Ms. Blanchard follows:]
    [GRAPHIC] [TIFF OMITTED] T7088.016
    
    [GRAPHIC] [TIFF OMITTED] T7088.017
    
    [GRAPHIC] [TIFF OMITTED] T7088.018
    
    [GRAPHIC] [TIFF OMITTED] T7088.019
    
    [GRAPHIC] [TIFF OMITTED] T7088.020
    
    [GRAPHIC] [TIFF OMITTED] T7088.021
    
    [GRAPHIC] [TIFF OMITTED] T7088.022
    
    [GRAPHIC] [TIFF OMITTED] T7088.023
    
   STATEMENT OF BRADLEY M. CAMPBELL, REGIONAL ADMINISTRATOR, 
          ENVIRONMENTAL PROTECTION AGENCY, REGION III

    Mr. Campbell. Chairman Young and Members of the Committee 
present, good afternoon. My name is Bradley Campbell. I am the 
Regional Administrator for EPA's Mid-Atlantic Region which 
encompasses Pennsylvania, Maryland, Virginia, West Virginia, 
Delaware and the District of Columbia. Thank you for the 
invitation to talk this afternoon about the impact of abandoned 
mine drainage on the streams and on the economy of the 
Commonwealth of Pennsylvania.
    As, Mr. Chairman, you, and the Members present witnessed in 
dramatic terms today, 175 years of coal mining in Pennsylvania 
has left a legacy of approximately 15 billion dollars worth of 
abandoned mine problems that dot the landscape in 45 of the 
state's 67 counties. The figures speak for themselves. More 
than 2,500 miles of streams polluted by acid mine drainage, 
250,000 acres of unreclaimed surface area, 100 million cubic 
feet of burning coal refuse and potential subsidence that scars 
the landscape.
    In Pennsylvania alone, the acid mine drainage problem 
encompassing those 2,500 stream miles accounts for 
approximately 52 percent of all degraded waters in the state 
and the significance of that problem from EPA's perspective, 
responsible and charged with implementing the goals of the 
clean water act, is clear. It is of paramount priority to EPA 
and to this region that we take head-on the problem of acid 
mine drainage and we do so seriously.
    I appreciate the occasion of this hearing to call attention 
to really three aspects of the problem, all of which have been 
mentioned to some extent but which I want to highlight today in 
my testimony. The first is EPA's programmatic commitment to 
addressing this problem and in doing so in partnership with OSM 
and the other agencies that are involved in this issue, and 
particularly the Commonwealth of Pennsylvania, so that we are 
approaching this on a unified basis, so that we're setting 
priorities jointly and so that we're exploiting the expertise 
of the individual agencies that are represented.
    The second is the need for public investment which I think 
Mr. Kanjorski spoke to eloquently. But I want to add as well a 
mention of private incentive so that not only the work of the 
Federal agencies is coordinated and well supported but so that 
wherever possible we have incentives in place that bring to 
bear the resources of the private sector.
    Just briefly, in terms of EPA's programmatic commitment, 
acid mine drainage is obviously a central focus of the 
Administration's clean water action plan initiated by President 
Clinton and Vice President Gore. Under the framework 
established by that plan and working on a coordinated basis 
among agencies, the Administration is committed to--and EPA in 
particular is committed to increasing to 150 miles per year the 
stream miles of acid mine drainage that we're addressing on an 
annual basis. We're committed to increasing by 50 percent and 
have now increased by 50 percent the number of on-the-ground 
projects we as an agency have or are putting in place to 
address this problem.
    We are also further committed, again coordinating our work 
with the other agencies, to demonstrating new technologies, new 
approaches that can be used to address this problem and we're 
particularly thankful to Mr. Kanjorski with whose help we have 
a 1.2 million dollar project on the ground that is using 
constructive wetlands as a means of filtering acid mine 
drainage to see--not only to address the problem in that 
particular area but also to demonstrate as part of a broader 
effort to try out the new technologies, as Mr. Sherwood 
recognized, that we're going to need if we're going to take on 
this problem in a cost-effective way of making the best use of 
the public resources.
    Moving to the issue of public investment, we as an 
administration and EPA in particular believe that this problem 
here in Northeastern Pennsylvania is typical of the type of 
problem that could be appropriately addressed through Better 
America Bonds. The President's proposal for a bonding mechanism 
that would generate more than 9 billion dollars nationally for 
precisely the types of projects that would protect clean water 
from acid mine drainage, that would help redevelop the kind of 
mine-scarred brown fields that dot the landscape here in 
Northeastern Pennsylvania. Again, it follows the type of model 
that the Chairman outlined earlier in this hearing, not 
creating new Federal offices or positions but using local 
initiative, locally lead projects, locally developed proposals 
but funding them using a mechanism that would offer investors a 
tax credit in lieu of a payment of interest to investors and we 
think that's an important proposal, that it offers a great deal 
of promise for this region, as I've discussed with certain 
Members of this Committee, and one that we hope that Congress 
will go forward with in this session. It also by the way is 
fully accounted for within the President's budget proposal 
which is another aspect of the Better America Bond proposal 
which would allow us to move forward with it quickly.
    The final issue I want to raise just briefly is that of 
private incentive. Mr. Kanjorski among others has been a co-
sponsor of a bill, H.R. 1750, that in addition to the elements 
of programmatic commitment and public investment, would help 
bring private investment into areas that are mine scarred like 
those in Eastern Pennsylvania. Specifically it's a brown fields 
bill on which there's broad consensus of the elements of it but 
in particular is relevant to this problem that would clarify 
the rules of liability--Super Fund liability for new investors, 
redevelopers, who on the margins of some of these affected 
towns and communities might be able to bring greater resources 
and could be encouraged to add their investments to the 
solution to addressing the problems we saw today. And with 
that, I thank you very much, Mr. Chairman.
    The Chairman. Thank you, Brad, for coming. Robert.
    [The prepared statement of Mr. Campbell follows:]
    [GRAPHIC] [TIFF OMITTED] T7088.024
    
    [GRAPHIC] [TIFF OMITTED] T7088.025
    
    [GRAPHIC] [TIFF OMITTED] T7088.026
    
    [GRAPHIC] [TIFF OMITTED] T7088.027
    
    [GRAPHIC] [TIFF OMITTED] T7088.028
    
    [GRAPHIC] [TIFF OMITTED] T7088.029
    
   STATEMENT OF ROBERT DOLENCE, DEPUTY SECRETARY FOR MINERAL 
 RESOURCES MANAGEMENT PENNSYLVANIA DEPARTMENT OF ENVIRONMENTAL 
                           PROTECTION

    Mr. Dolence. Good afternoon, Mr. Chairman and Members of 
the Committee. My name is Bob Dolence and I am the Deputy 
Secretary for Mineral Resources Management at the 
Pennsylvania's Department of Environmental Protection. On 
behalf of Governor Ridge and Secretary Jim Seif, I want to 
thank you for this opportunity to speak with you about mine 
reclamation.
    Pennsylvania's rich industrial heritage and abundant 
natural resources have been and will continue to be strengths 
in providing jobs for our citizens and in increasing the 
prosperity and economic vitality of the commonwealth and of our 
Nation. A portion of that legacy, however, is a large inventory 
of abandoned mines, acid-degraded streams and unsafe shafts and 
high walls around the state. Repairing that damage from the 
past is one of the best ways we can improve both the economic 
vitality and the quality of life in Pennsylvania in the future. 
I will not provide the detail verbally that's in the written, 
submitted testimony. We estimate the cost of addressing these 
priority 1 and 2 problems in the anthracite region to be almost 
2 billion dollars excluding AMD treatment costs.
    As mentioned earlier, the AML fund established by Congress 
and funded by the coal operators in Pennsylvania as well as 
other mining states has been appropriated sparingly in recent 
years resulting in a large balance of funds. Over 1.3 billion 
dollars collected for reclamation is sitting idle while 
problems are still unaddressed. It is a great frustration to 
the citizens of Pennsylvania, to the coal operators of 
Pennsylvania who contribute to the fund, to DEP and to this 
Administration that such a large sum of money collected 
expressly to meet this important need has been held hostage to 
the budget process in Washington.
    Getting this money released from Washington so that it can 
be put to the use for which it was intended is one of Governor 
Ridge's top priorities. He has personally carried that message 
to Washington several times in the past and I reiterate that 
request today.
    For the past several years, Pennsylvania's annual 
allocation from the Title IV appropriation has averaged about 
22 million dollars, down from a high of 66 million dollars in 
1984.
    In the anthracite region, DEP has completed 306 reclamation 
projects with direct construction costs of about 160 million 
dollars. These projects have involved about 10,000 acres. We 
believe that Pennsylvania has put to good use the funding that 
we have received under Title IV, and I believe that the best 
chance to accelerate our rate of progress throughout the state 
is for Congress to increase the appropriations from the AML 
trust.
    While we cannot address all of our mining reclamation needs 
throughout the state without increasing funding from Congress, 
we have not rested on that hope alone for progressing. Governor 
Ridge recently signed into law the Environmental Stewardship 
and Watershed Protection Act, which embodied his Growing 
Greener Initiative. This legislation was adopted with the very 
effective help and leadership of Senator Ray Musto and 
Representative David Argall, both of whom represent districts 
in the anthracite region. Growing Greener is the largest single 
investment of state funds in our history to help improve 
Pennsylvania's environment, making nearly 650 million dollars 
available over the next 5 years for grants for projects that 
protect and restore watersheds.
    Another legislative change that was adopted by the general 
assembly on the same bill as Growing Greener was the 
Environmental Good Samaritan statute. This statute provides 
protection from legal and environmental liability for groups 
voluntarily undertaking mine reclamation or gas well 
reclamation.
    The Ridge Administration is stating to the public, ``if you 
take this challenge on in good faith and are not negligent in 
doing so, you are protected from third-party lawsuits and with 
Growing Greener, you have the opportunity for funding to assist 
with the restoration.''
    Additional program enhancements designed to involve public 
participation and encourage more industry reclamation of 
abandoned mine sites may be found in the Governor's Reclaim PA 
initiative. This effort compliments Growing Greener and 
Environmental Good Samaritan.
    Pennsylvania coal has powered this Nation's industrial 
growth in the past and it continues to fuel the industrial and 
heating needs of today. Pennsylvania is committed to doing its 
share and more to remedy the scars of mining that remain.
    We would urge the Congress to release more of the funds 
that have already been collected for reclamation so that we can 
accelerate our progress in repairing the environment and 
protecting the safety of our citizens throughout the 
commonwealth. Thank you very much for the opportunity this 
afternoon.
    The Chairman. Thank you, Robert. Laure.
    [The prepared statement of Mr. Dolence follows:]
    [GRAPHIC] [TIFF OMITTED] T7088.030
    
    [GRAPHIC] [TIFF OMITTED] T7088.031
    
    [GRAPHIC] [TIFF OMITTED] T7088.032
    
    [GRAPHIC] [TIFF OMITTED] T7088.033
    
STATEMENT OF LAURE CARLO, LEGISLATIVE ASSISTANT, THE HONORABLE 
 EDWARD G. STABACK, HOUSE OF REPRESENTATIVES, COMMONWEALTH OF 
                          PENNSYLVANIA

    Ms. Carlo. Good afternoon. Laure Carlo, aide to 
Representative Staback. I am offering testimony on his behalf. 
He's in Harrisburg today.
    Dear Committee Members, I appreciate this opportunity to 
present testimony to the Committee. Unfortunately, since the 
State House of Representatives is in session today, I am unable 
to attend your meeting in person, however, I do have very 
strong feelings regarding the abandoned mine projects left 
undone in the Northeast and am pleased to have this forum to 
share my thoughts with you.
    At the beginning of the Year 2000, our state's lands remain 
scarred by the remnants of its past. Pennsylvania's 
contribution of coal to the Industrial Revolution of the 19th 
and 20th Centuries has left a legacy of depleted, dangerous 
terrain and polluted waterways throughout the commonwealth. 
Over 250,000 acres of mine lands are abandoned and 2,400 miles 
of streams are polluted with acid mine drainage spotting the 
state with hazards to health and obstacles to growth. 
Pennsylvania has one-third of the Nation's abandoned mine 
lands. Currently, there are 44 underground mine fires and 34 
surface mines burning; throughout the state, there are 2,400 
documented health and safety hazards and the estimate to repair 
our land and water is 15 billion dollars. The Department of 
Environmental Protection Bureau of Abandoned Mine Reclamation 
completes around 150 projects each year through the expenditure 
of approximately 20 million dollars received from the Federal 
Government. Approximately 10 million dollars from that 
expenditure goes to the bituminous region in Western 
Pennsylvania and 10 million goes to the anthracite region in 
the Northeast. From that Federal allocation, administrative 
costs are taken from the top. In the northeast, after 
administrative costs are subtracted, only about half of the 
original allocation of 10 million dollars remains for actual 
use on projects in the field. The cost to repair the projects 
already identified in just my legislative district, the 115th, 
is greater than the total yearly expenditure for the entire 
anthracite region of Central and Northeastern Pennsylvania. At 
this rate of funding and reclamation, our state's present 
problems will be solved in just under 469 years. Needless to 
say, that is totally unacceptable. The recent Growing Greener 
law, House Bill 868, creates the Environmental Stewardship and 
Watershed Protection Fund. From that fund, the Department of 
Environmental Protection will receive a percentage to serve, in 
part, as a state funding source for abandoned mine reclamation 
projects within DEP. However, since abandoned mine projects 
will compete against restoration projects for watersheds and 
reclamation projects for oil and gas wells, no one knows how 
much money the state will contribute in the future. Budgets for 
mine projects cannot rely upon a floating percentage that has 
no statutory limits. Therefore, though Growing Greener offers 
potential for new state contributions to abandoned mine 
reclamation, the value of that effort is yet unproven. As our 
state faces the immense environmental challenge of reclaiming 
its damaged lands, programs such as Growing Greener and other 
related state efforts such as Reclaim Pennsylvania, frankly, 
are steps in the right direction with proper intentions but 
which are nearly insignificant when compared to the enormity of 
the cleanup task. While these efforts are underway to scrape 
together funds and stretch resources to accomplish just a few 
of the health and safety projects necessary throughout the 
state, the Federal Abandoned Mine Reclamation Fund grows. I am 
aware of the obvious budgetary maneuverings that has placed the 
more than 1 billion dollars of this fund out of grasp of needy 
states. However, the fund still grows. We who are involved in 
this issue understand why the billion-dollar jackpot is not to 
be allocated. But why should companies continue to contribute 
dollars that could be spent by states on cleanup efforts to a 
fund that is an established budgetary facade? The trust fund 
needs no additional dollars if they are to be used merely as 
accounting tools to balance the Federal budget. Obviously, the 
yearly payments by mining companies at work in this state would 
be best used for cleanup projects within Pennsylvania's 
borders. The freezing of its assets has thwarted the purpose of 
the Abandoned Mine Reclamation Fund. By returning the new 
contributions, those yearly allocations could be spent wisely 
before they are lost along with the other resources now 
awaiting allocation in the fund. I urge the Committee to 
support the return of these yearly contributions to the states 
in which the contributing company mines. While the spoiled 
lands of the northeast await reclamation, its economy and its 
people suffer. Opportunities for economic rehabilitation are 
lost because of spoiled landscapes and polluted waters. Simply 
stated, quick and complete reclamation will result in quick and 
complete economic recovery. Every dollar that is spent in mine 
reclamation prepares the land for economic investment, whereas, 
abandoned mines are now wasted property, each reclaimed site 
becomes a land of opportunity. I have submitted a list of 
projects to the Committee for its file that are identified for 
reclamation within my legislative district in Lackawanna 
County. Each of these sites is a present-day danger and 
represents a lost opportunity for residential and economic 
development. With your help, the lands of the northeast will no 
longer be a scarred testament to Pennsylvania's past but will 
become a reclaimed promise for its future. Thank you.
    [The prepared statement of Mr. Staback follows:]
    [GRAPHIC] [TIFF OMITTED] T7088.034
    
    [GRAPHIC] [TIFF OMITTED] T7088.035
    
    [GRAPHIC] [TIFF OMITTED] T7088.036
    
    [GRAPHIC] [TIFF OMITTED] T7088.037
    
    [GRAPHIC] [TIFF OMITTED] T7088.038
    
    [GRAPHIC] [TIFF OMITTED] T7088.039
    
    [GRAPHIC] [TIFF OMITTED] T7088.040
    
    [GRAPHIC] [TIFF OMITTED] T7088.041
    
    [GRAPHIC] [TIFF OMITTED] T7088.042
    
    [GRAPHIC] [TIFF OMITTED] T7088.043
    
    [GRAPHIC] [TIFF OMITTED] T7088.044
    
    [GRAPHIC] [TIFF OMITTED] T7088.045
    
    [GRAPHIC] [TIFF OMITTED] T7088.046
    
    [GRAPHIC] [TIFF OMITTED] T7088.047
    
    [GRAPHIC] [TIFF OMITTED] T7088.048
    
    [GRAPHIC] [TIFF OMITTED] T7088.049
    
    [GRAPHIC] [TIFF OMITTED] T7088.050
    
    [GRAPHIC] [TIFF OMITTED] T7088.051
    
    [GRAPHIC] [TIFF OMITTED] T7088.052
    
    [GRAPHIC] [TIFF OMITTED] T7088.053
    
    [GRAPHIC] [TIFF OMITTED] T7088.054
    
    [GRAPHIC] [TIFF OMITTED] T7088.055
    
    [GRAPHIC] [TIFF OMITTED] T7088.056
    
    [GRAPHIC] [TIFF OMITTED] T7088.057
    
    [GRAPHIC] [TIFF OMITTED] T7088.058
    
    [GRAPHIC] [TIFF OMITTED] T7088.059
    
    [GRAPHIC] [TIFF OMITTED] T7088.060
    
    [GRAPHIC] [TIFF OMITTED] T7088.061
    
    [GRAPHIC] [TIFF OMITTED] T7088.062
    
    [GRAPHIC] [TIFF OMITTED] T7088.063
    
    [GRAPHIC] [TIFF OMITTED] T7088.064
    
    The Chairman. I thank you. I have a couple of short 
questions. Thanks to the panel for your testimony, No. 1. Mr. 
Campbell, we have a little problem with a lot of our agencies 
in that some people don't see the forest for the trees. Are you 
aware of any EPA-implemented regulations for soil, air and 
water quality that get in the way of bringing more efficient 
on-the-ground solutions to mine cleanup, and if so, how do we 
get around those problems?
    Mr. Campbell. I am not aware of any particular regulations 
that stand in the way currently, Mr. Chairman.
    The Chairman. What about the ash--the coal ash, what is it?
    Mr. Sherwood. Fly ash.
    Mr. Campbell. Well, I think the fly ash has not been an 
obstacle of any specific reclamation project--.
    The Chairman. I understand before your agency though 
someone is proposing they make it a toxic--classify it as a 
toxic waste--hazardous waste, and if that occurs, there's very 
little chance of really reclaiming this land.
    Mr. Campbell. I am aware that that is being looked at in 
the context of a broad variety of uses of ash.
    The Chairman. Who in the world is recommending that?
    Mr. Campbell. Well, Mr. Chairman, this issue comes up in a 
bunch of different contexts including areas where ash has been 
inappropriately used as fill, and the agency has not proposed 
to change the current regulatory structure. I think the 
concerns specifically with respect to abandoned mine 
reclamation have been very squarely raised to the agency, and 
we will make sure that those concerns are addressed in a 
common-sense way before any regulatory proposal or change is 
made.
    The Chairman. I am not picking on you. I just don't have a 
whole lot of faith in your director and some of her ideas. I 
really believe she cannot see the forest for the tress in 
solving problems. You're not the only agency that does this, 
because everybody can give you a thousand reasons of why you 
can't do it, and yet we really still have the problem. So I 
want to suggest whatever you can do, being from this region--
remind them that I am very concerned that no one makes a stupid 
mistake of logically trying to solve a problem by applying some 
idea out here that doesn't work. I just wanted to make sure of 
that.
    Secondly, you talked about in 1994 you spent $12 million.
    Mr. Campbell. Since 1994, I think.
    The Chairman. That's not a whole lot of money. What's in 
your budget this year?
    Mr. Campbell. This year we are--it's under--we're still in 
the process of allocating. As you know, there was at the last 
minute a cut in the overall budget, and we're as an agency in 
the process of seeing how that cut is being allocated. So I 
will be able to get back to the committee on the specific 
allocation for this year. But even if we doubled the resources, 
Mr. Chairman, as you know, and as the witnesses reflect, the 
problem here would dwarf our budget even if we doubled the 
resources, and that's one reason why we've seen it as a 
priority to get something like Better America Bonds moving 
forward so that the resources could be made available to local 
governments, to communities that put together clean water 
projects that would address problems like these.
    The Chairman. Again, not you personally, I'd just like to 
see the EPA start directing some of their real efforts toward 
solving this existing problem that we know is there instead of 
worrying about the particulate amount of volcanos in my State. 
I don't have any way yet to put a harness on a volcano. It 
might be suggested, but I am not--Congress creates a lot of 
things, but I don't think we can do that. But that is really 
being considered because it is the one factor that puts the 
particulate amount in the air that--in human activity--that if, 
in fact, the EPA's regulations were put in place, that we could 
not meet air quality. And I keep saying this is a silly idea, 
and nobody listens to me.
    Mr. Dolence, Governor Ridge's proposal, Growing Greener, 
but the bill that I've introduced here, I believe the Governor 
supports that, that would bring some money into your program, 
would it not, about $50 million?
    Mr. Dolence. This is the OCS?
    The Chairman. Yes, the OCS.
    Mr. Dolence. I believe the Governor supported that in 
principle, but there were some questions on the details of it.
    The Chairman. But, as I understand it, I talked to him 
personally, he does support it. But it would bring about $50 
million into that package. Lawsuits, who would sue somebody for 
trying to clean something up?
    Mr. Dolence. Third-party lawsuits, sir--the impetus for the 
Good Samaritan legislation was in western Pennsylvania, an 
abandoned discharge known as the Langeloth bore hole. It was a 
high-iron alkaline discharge from a deep mine, and a local 
group had suggested building a passive treatment system to drop 
the iron out so it would not discharge into the stream. A local 
coal company owned the property--well, it was not responsible 
because the discharge--came from the 1940's, and said, I'll 
sell you the land for $1, 7 acres of prime land to build a 
wetland, because the coal company did not want to be liable 
under its ownership and control regulations of the Federal and 
State governments.
    The local watershed group went--we're worried about the 
liability as well. A third party could come along and say that 
is not meeting the effluent standards and then sue the 
voluntary group in Federal court. And that was a concern with 
many groups. They could sue in State court as well. So we 
provided not only for environmental liability for those groups, 
but also if someone is working there and got hurt, tripped and 
broke a wrist or an ankle, but it was not due to the negligence 
of the group, then that person could not sue the group as well. 
It took some of those legal barriers away from those projects.
    The Chairman. I think it's a great idea, but I hate to see 
something discourage solving a problem, and this legislation 
could do it.
    Ms. Blanchard, I just want to make one comment. This 
Committee that I've been chairing for 6 years has always 
requested more money, about $20 million, and unfortunately I am 
not an appropriator. If I had my way, we'd eliminate the 
appropriating committee and the Budget Committee, and they'd 
let us authorize, who listen to the people, figure out how to 
do it, but we try to get the money to you because we know how 
valuable it is in this total package. And we're glad to see 
you're working with EPA that heads the States because this 
whole thing should be a joint effort. It cannot survive on its 
own, and just not on this problem of coal mines, but any other 
area you're trying to make a go.
    Mr. Sherwood.
    Mr. Sherwood. Ms. Blanchard, I want to commend the Office 
of Surface Mining and all the great projects they've had. And 
as we were in the air today, you could see where these 
reclamation projects stood out. Here we'd be in the midst of 
devastated coal ground, and there would be a ridge or a site 
hill that was planted and looked like it had lots of grass on 
it, and it was a successful project. But as Laure Carlo stated 
for Representative Staback, they are such a small percentage. 
And I think that's something we need to stress today. All this 
money that's been spent by the Office of Surface Mining, the 
abandoned coal mine reclamation projects, if you get in the 
air, as we did today, there are 10 or 20 times more projects 
that need to be done than have ever been done. In other words, 
there's a nice little green spot in the middle of all these 
culm banks and high walls and strip-mine pits, and so the 
process, again, as Representative Staback's testimony said, is 
just going to take too long unless we find a new way to go 
about it.
    The question I'd like to ask you, I was very interested 
that you say OSM has developed with local nonprofit watershed 
organizations to improve water quality, and I'd like you to 
give me some examples here in the 10th Congressional District 
on how they work.
    Ms. Blanchard. The one that--I am not sure exactly where 
the boundaries are on--we haven't had any applications from the 
10th District. This is something that when a local community 
organization would approach--a watershed group would approach 
the Office of Surface Mining, and then we would evaluate their 
particular projects and be able to see if we're able the give 
the money. But as of right now, we haven't received any 
requests from the local watersheds. We would certainly 
encourage local groups to be able to provide--.
    Mr. Sherwood. Well, there's been tremendous work done 
cleaning up the Lackawanna River and great success made, and 
yet today when we flew up the river by Old Forge, you could see 
it go from blue to orange and then back to blue again. So it's 
just that we have those problems that we have to work on.
    And, Brad, I've got to get back to the fly ash deal because 
I don't think we can make that important enough. But we have 
sent a letter to Secretary Browner, my colleagues and I, asking 
that that be turned around because we can't understand a ruling 
by EPA that would disincentivize the mine land reclamation. And 
one of the things that has worked so well to clean up some of 
our culm banks is the ruling a few years ago where the power 
companies had to buy the power. So, you know, they're burning 
all this culm, producing power, it's working, they're cleaning 
things up, but then we have to use the fly ash. It has to be 
land-filled, it has to be used, and to make it more difficult 
sounds counterproductive to me.
    Mr. Campbell. I agree. I've seen the press accounts and 
some columns on this issue. Again, there isn't even a proposal 
yet, but let me just offer the assurance that I will personally 
focus on this and make sure that any proposal that comes 
forward does not present the kind of issues you present.
    And let me also acknowledge Bernie Sarnopski of the EPA 
staff, who is not only an expert on this problem, but is a son 
of this region, and I'll make sure that we have expert advice 
to make sure it doesn't present any of those obstacles.
    The Chairman. Not to pick on you, Brad, but you know the 
last of the EPA under a different administration--by the way, 
it happened to be my administration--they insisted upon putting 
additives in our gasoline in Alaska, and we fought that tooth 
and nail, and rightfully so. We find out now that someone's got 
egg on their face because it creates too many illnesses, and we 
said that at that time because--I don't know who ever came up 
with the idea of putting this stuff in the gas. It was supposed 
to make it cleaner, and instead it added formaldehyde in the 
air. And we have an aversion there--I don't know if you've ever 
been to Alaska--that really hurt people, but that's besides the 
point.
    Mr. Kanjorski.
    Mr. Kanjorski. Thank you, Mr. Chairman. Let me get the 
record straight in a couple of moments.
    Ms. Blanchard, I think you may be aware of the fact of the 
cost per congressional district of reparable land. The 11th 
Congressional District of Pennsylvania has the highest price 
tag, as I understand it, of the Office of Surface Mining for 
cleanup and reclamation; is that correct?
    Ms. Blanchard. Well, what I stated previously was that for 
the whole anthracite area, that it would be--1.9 billion is the 
amount that is in there right now for cleanup in the inventory 
system.
    Mr. Kanjorski. Right. But as I understand, the study does 
it in more detail on a congressional district by congressional 
district. Apparently my district, the 11th, has the highest 
price tag. Mr. Rahall's district in West Virginia has the 
second, and Mr. Boucher's district in Virginia has the third 
highest price tag. Do you have any knowledge of that?
    Ms. Blanchard. We received your letter requesting some 
information on this last Wednesday, and we're in the process of 
checking it out to find out exactly what it is. Certainly, as 
you pointed out, it's one of the top two or three for sure.
    Mr. Kanjorski. Brad, I am just going to go at you for a 
second. In terms of the Better America Bonds, you know that I 
favor those bonds, but unless the administration changes the 
full faith and credit requirements, unless they change that, 
they can only be given to local government and municipalities, 
and unless they provide for the lack of comprehensive planning 
that's in there now, there's absolutely no vital way for this 
type of massive cleanup--that those bonds become usable. 
There's no way that these 460 communities are going to come 
together and just all decide on one plan. There's no way 
they're going to place full faith and credit in their 
communities. I mean, we can't even get that done for hospitals 
and schools.
    And, finally, I think not only from what you're talking 
about what the EPA can do, what the Office of Surface Mining--
the one thing that's lacking here--I think that the Chairman 
put his hand on in our flyover today, and you may have heard 
that on the earphones when we were talking back and forth--this 
can't be done on a project-by-project basis. We're going to end 
up spending an incredible fortune--I think the numbers, Robert, 
you gave about 10 million comes to Pennsylvania's anthracite, 
and after you pay for engineering costs and administration, 
only 5 million gets into the field.
    Mr. Dolence. That's the construction costs.
    Mr. Kanjorski. Right.
    Mr. Dolence. Those are on-the-ground dollars.
    Mr. Kanjorski. That's only 50 percent that gets on the 
ground. From my study of these projects, it's 25 to 35 percent 
end up before any work gets done on the ground because you're 
going from project to project bringing in engineers from all 
over the world or country that are bidding on this stuff. 
They're doing individual site operations.
    What we're trying to make, Mr. Chairman, evident is that 
this can't be done a spotty project-to-project basis. It's got 
to be done comprehensively. We've got to get a cost containment 
on these engineering costs, design costs and inspection costs, 
and the real dollars have to flow to the ground.
    I guess what I'd like to urge our distinguish panelists--
and I happen to agree with my good friend Mr. Staback, I think 
he's got it right on--but it's a responsibility of not only 
myself, Mr. Sherwood and Mr. Holden to come up with some ideas 
as to how we could fund this, but the agencies--you know, I am 
embarrassed that we all sit here and say, well, the dispute is 
whether at the present rate it's going to take 260 years or 410 
years, and that doesn't make anybody slip under the table and 
get embarrassed. That means we're closer to the American 
Revolution than we are to cleanup, and maybe twice as far from 
cleanup. I don't think that's acceptable.
    And more problems are occurring. As the Chairman mentioned, 
the additives to gasoline, I've been reading about it. Suddenly 
that'll get a high profile, everybody will run in there, and--I 
would like to charge my administration, not the Chairman's 
administration, to work with us in the Congress. If you don't 
like our anthracite bonds, make the Better America Bonds work, 
but just don't say Better America Bonds, because I tell you 
right now they won't work as they're presently constituted, 
Brad. And I am going to tell you that whatever problem--I think 
all my colleagues locally that represent Pennsylvania--this is 
a strange State in terms--we have 2,500 municipalities, 67 
counties and a total lack of planning probably in 90 percent of 
our municipal governments, and I think, Robert, you know that. 
That's Pennsylvania's problem. So we need somebody 
comprehensively to--understanding what this concept is, to come 
with the Federal Government and say, here's how we can help, 
and here's some ideas on how it can be done; the State 
government coming in and saying, here's what we can do and how 
we can help administer and get this done; and then at the local 
level and the communities themselves and the people. But if we 
keep talking about how wonderfully we've done for the last 25 
years, and we spend $10 million a year, and we're only going to 
have to do that for the next 400 years, that doesn't give me an 
awful lot of satisfaction or even--it doesn't impress me that 
we've got people really thinking about this.
    So I've worked with Cathy Karpan, and I've worked with you, 
Brad, in your other capacity and look forward to your service 
now in region three as the administrator. But we really have to 
come within the next month or 2 or 3 months with a very 
comprehensive program that everybody can live with, that we 
believe that we can implement and get done, and then let the 
Congress and let the Chairman take it on his shoulders and 
carry it down the field and score that touchdown for us. Thank 
you.
    The Chairman. Tim.
    Mr. Holden. Thank you, Mr. Chairman.
    Ms. Blanchard, just one quick question--and you might have 
said it in your testimony--how much revenue was generated into 
the trust fund, and then how much was appropriated in the last 
budget cycle? Something like 390 million generated and only 310 
appropriated?
    Ms. Blanchard. We had 275 million coming in and the 196 
million go out.
    Mr. Holden. So about 80 million unspent.
    The Chairman. Plus all the interest.
    Mr. Holden. Thank you.
    And then finally, Brad, I just want to associate myself 
with remarks made by the Chairman and by Mr. Sherwood dealing 
with the fly ash. I know the administrator knows clear well 
where the Pennsylvania delegation stands on this issue, but it 
really is disheartening when you think of this 100 years of 
eyesores that we face. And then finally through the Purple 
legislation we finally find a use and a way to get rid of these 
culm banks, and then to have this proposal, whether it's real 
or implied, about being classified as hazardous waste, it 
really would be a giant step backward. And I know you've been 
worked over twice already, but I wanted to land a third punch 
and say that.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Sherwood, do you have any other 
questions?
    Mr. Sherwood. No.
    The Chairman. Mr. Kanjorski?
    Mr. Kanjorski. I just want to thank the panel that came 
today because I think we're finally trying to just get to the 
issue, and I appreciate all of your effort. I don't want to 
appear as though I am not genuinely pleased with the effort 
you're making, but we need even a stronger effort.
    The Chairman. Well, I want to thank the panel again. I can 
say my goal is to try to solve this problem, and frankly my 
conservation reinvestment act will do part of that. And I tell 
my good colleagues on the opposite side of the aisle and I tell 
my colleagues on this side of the aisle, right, wrong or 
indifferent, when you read the papers, there's $2 trillion now 
supposedly in surplus which may be predicted, but if we're 
going to do things, we ought to do things by solving problems 
and not creating some new, great, grandiose program.
    That's one of my objections to President Clinton every day. 
You read where he's going to spend so many millions of dollars 
on a new program, and I commend him for having the imagination, 
but I also condemn him for not addressing this problem. This 
money has been collected. We ought to take the money out of the 
Congress and we ought to spend it and solve the problem, which 
would create tremendous wealth.
    I mean, I am convinced of this. You have the power here, 
you have the land mass here, you have the work force here, you 
have a strong work ethic, and if you had the land space, you 
clean this water up for New Jersey and Maryland and the rest of 
it and also get this land cleaned up, that's what I would like 
to see done, and we can do it jointly. I will try to do that. I 
can't do it all by myself. This is going to take a lot of joint 
effort. I think that Mr. Kanjorski said a good thing. I want 
the administration to come down with some good ideas; not a new 
idea on something else, but something that addresses this 
problem. With that you're-- .
    Mr. Dolence. Excuse me, Mr. Chairman, may I?
    The Chairman. Yes.
    Mr. Dolence. I'd like to offer to Brad to share with him 
our position that this--the Commonwealth of Pennsylvania's 
position on the ash. And there's an element that is missing in 
the discussion so far, and that is if the ash is classified as 
hazardous, it is not only going to be a burden to the cogens, 
it will put them out of business. We will not have the benefit 
from the ash. We will not have the culm being cleaned up, and 
we won't have that green--I consider green electricity coming 
from those cogens. Those cogens will shut down because they're 
on a fixed-cost basis. And I wanted to emphasize that.
    I think Mr. Kanjorski is right on the mark. A holistic 
approach, that was the whole impetus behind our Growing Greener 
initiative, and I can't agree more that we look at the big 
picture. You don't just look at one project and another one. 
We're looking at them watershed by watershed.
    And as a final note on the market, remining in Pennsylvania 
in 1998, we received 3,300 acres of reclamation free by the 
coal industry. Government, the Federal EPA, OSM, Commonwealth 
of Pennsylvania, we spent $26 million and reclaimed 2,000 
acres. We need to maintain a market, especially in anthracite. 
That is a unique product, and it is hurting. It does not have 
the market that bituminous has. In anthracite--the surface 
mining in anthracite is well over 90 percent remining, meaning 
90 percent of the time when an operator goes out there and 
mines, he or she is reclaiming old abandoned sites at no cost 
to the taxpayer. You want to talk about holistic and being 
smart on how we spend our dollars, if we put that industry out 
of business, we lose it. It'll never come back. Thank you.
    The Chairman. I appreciate that. As you know, my stand on 
the mining has been very strong because those that are mining 
are doing it right, and I don't think they should pay for the 
sins of those who created it. I go back to World War II. That's 
when all this damage really was done, not all of it, but some 
of it and most of it, and we ought to recognize that.
    With that, you're excused. Thank you very much. If you 
would like to stay with us, you can. If you'd like to leave, 
that's your prerogative.
    We will have the panel III, Andy Skrip, Vice President of 
the Greater Scranton Chamber of Commerce; David Donlin, 
President, Economic Development Council of Northeastern 
Pennsylvania, Executive Director, Schuylkill Chamber of 
Commerce; and Bernard McGurl, Executive Director of Lackawanna 
River Corridor Association.
    And if you would, Mr. Sherwood, would you take the gavel 
for me and run this for a moment.
    Mr. Sherwood. [Presiding.] Certainly.
    We are going to hear from Andy Skrip, the Vice President of 
the Greater Scranton Chamber of Commerce, and no one will be 
better able to tell us the problems that are associated with 
economic development in conjunction with the scars of our 
anthracite heritage. Andy.

 STATEMENTS OF ANDY SKRIP, VICE PRESIDENT, SCRANTON CHAMBER OF 
  COMMERCE; DAVID A. DONLIN, PRESIDENT, ECONOMIC DEVELOPMENT 
   COUNCIL OF NORTHEASTERN PENNSYLVANIA, EXECUTIVE DIRECTOR, 
 SCHUYLKILL CHAMBER OF COMMERCE; AND BERNARD McGURL, EXECUTIVE 
        DIRECTOR, LACKAWANNA RIVER CORRIDOR ASSOCIATION

                    STATEMENT OF ANDY SKRIP

    Mr. Skrip. Good afternoon, Mr. Chairman and Members of the 
Committee on Resources. My name is Andy Skrip. I am the vice 
president of the Greater Scranton Chamber of Commerce. I am 
here today representing the Chamber and the Scranton Lackawanna 
Industrial Building Company, SLIBCO, the industrial development 
arm of the Greater Scranton Chamber of Commerce.
    Mr. Sherwood. If we're not quiet in the back, we can't run 
the hearing.
    Continue.
    Mr. Skrip. I have been associated with the Chamber and 
SLIBCO for 20 years and have been involved with economic 
development for 25 years.
    On behalf of the Chamber's board of directors and our 
membership consisting of over 2,600 businesses in the greater 
Scranton area, I am here to share with the committee members 
mine land reclamation problems specific to northeastern 
Pennsylvania.
    By way of background, the Scranton Lackawanna Industrial 
Building Company, SLIBCO, is a not-for-profit community 
economic development company. Our mission is to create and 
retain jobs by developing real estate and obtaining financing 
for businesses.
    SLIBCO was created out of necessity when the coal industry 
bottomed out after World War II and post-war depression had set 
in on northeastern Pennsylvania. Under the SLIBCO umbrella, 
public and private sectors began pooling their resources to 
attract businesses to the greater Scranton area. Since SLIBCO's 
inception over 55 years ago, SLIBCO has been responsible for 
the planning, financing and/or construction of over 287 
projects, creating over 25,000 new jobs and adding 
approximately $423 million to the economy.
    SLIBCO currently owns six buildings totaling over 1.1 
million square feet and leases them to J.C. Penney, Prudential, 
Fleet Financial Services, Northrop Grumman, General Dynamics 
and Diversified Information Technologies. We also have 
developed 10 office, technology and industrial parks in 
Lackawanna County. SLIBCO is the largest developer of abandoned 
mine lands in Lackawanna County and has direct experience in 
the marketing and development of these lands.
    As you are aware, the economic development in the United 
States is fierce. Every state and community throughout the 
Nation are fighting for new corporate expansions and 
relocations, new jobs for their communities. The marketing of 
lands within the mining measures as they currently exist will 
always place northeastern Pennsylvania at a disadvantage of 
attracting industry to the area when these sites are compared 
to other sites without similar problems.
    The result of being in this disadvantaged position are loss 
of jobs for the community and the loss of millions of dollars 
invested into the state through our payroll, services and 
operating expenditures. Our experience in Lackawanna County has 
borne out these observations. The Scranton labor market has 
been one of persistent and substantial unemployment and 
underdevelopment for decades.
    The industrial sites available in the older industrial 
areas of Lackawanna County situated over abandoned mines have 
been available for decades, but have failed to attract new 
investment. The successes in attracting high technology, office 
and growth industries have occurred primarily at greenfield 
sites outside of the mining measures. These include the 
Northrop Grumman facility in Benton Township, Chrysalis 
facility in Scott Township, Fleet Financial Services, Cigna, 
Alliance Capital at the Glenmaura Corporate Center, Prudential 
and J.C. Penney offices at the Office Park at Montage and Met 
Life in Abington Executive Park.
    The development of attractive business parks within 
abandoned mine areas has many challenges. The cost, risk, 
appearance, engineering challenges and time delays are all the 
barriers that prevent the reuse of these properties for job-
producing locations.
    Before a company would even consider sites over mined 
areas, they would have to evaluate the risk. Up-front moneys 
would have to be spent for subsurface geotechnical reports, 
testing and drilling. Then ultimately, if chosen to proceed to 
the next step, the premium cost to design and construct 
remedial measures such as the removal of above-grade 
structures, the filling of mine openings and voids, grading and 
compaction of strip pits are all too often cost-prohibitive. 
These additional tasks take time and money that the prospective 
companies are not willing to make, especially if other 
competing sites don't require the same outlay and time delay.
    Another major environmental and liability concern 
associated with these sites are the stripping pits and deep 
topographic depressions. These geological features were 
historically used as community dumping sites. Even today, 
illegal dumpers use these areas as dump sites for all types of 
waste.
    Land located within the mining measures have poor soil 
conditions and/or subsurface voids which presents a high risk 
of subsidence problems or differential settlement.
    One of the basic rules of risk management is avoidance. 
Site selection teams and executives use engineering reports and 
common sense that ultimately forces them to eliminate abandoned 
mine lands because of the risk. Coal-scarred land with the 
existence of culm banks, red ash piles, strip pits and the lack 
of vegetation are contrary to the clean and sleek corporate 
image of the 21st century corporate America. These lands not 
only bear the additional cost and risk, but studies have shown 
direct links between employee morale and productivity relative 
to operating in such an unsightly environment.
    Another key factor employers consider is the amount of time 
necessary to get the operation up and running. Time issue all 
boils down to identifying an area where the company's 
performance contracts can be executed. This always requires a 
fast-tracked project. The major component to a fast-track 
project is the availability of land or buildings that already 
have all the necessary permits and approvals to start 
construction. In other words, the site must be ready to go. 
Unfortunately, prospective companies know the impacts, cost, 
the risk, time, aesthetics and image of developing over mining 
measures and automatically eliminate these sites without any 
consideration.
    The failure to develop industrial land sufficiently 
attractive to induce job-producing investment by growing, 
technologically competitive industries will result in continued 
economic stagnation, substandard income, underemployment and 
the continued out-migration of our young minds, our children.
    The existing abandoned mine land program as authorized 
under Title IV of the Surface Mining Control and Reclamation 
Act of 1977, SMCRA, has served our region well. Under SMCRA, 
the Pennsylvania Department of Environmental Protection, the 
Bureau of Abandoned Mine Reclamation has abated many dangerous 
conditions such as open mine shafts and dangerous high walls 
and has regraded many of our blackfields.
    Also under SMCRA, the Office of Surface Mining addresses 
emergency AML problems. While SMCRA has addressed and continues 
to address many health, safety and environmental problems in 
northeastern Pennsylvania, there are two reasons why SMCRA 
funding alone cannot address the reuse of abandoned mine lands 
for industrial development.
    One, under SMCRA, AML reclamation is prioritized with 
health and safety problems ranking highest, environmental 
problems ranking next, then followed by economic development. 
Currently, SMCRA guidelines limit reclamation activities at 
health, safety and environmental problem sites to regrading and 
preclude the additional compaction and subsurface stabilization 
required to prepare a site for industrial reuses.
    Two, Pennsylvania has the largest inventory of abandoned 
mine land problems in the country, and northeastern 
Pennsylvania has its fair share, or unfair share, of the 
Commonwealth's problem areas. Given the current AML fund 
appropriation levels, it will be decades, if not centuries, 
before AML moneys can be expended to economic development.
    In summary, if we are to realize the productive reuses of 
the thousands of acres of blackfield sites in northeastern 
Pennsylvania, we need the financial resources to eliminate 
these barriers and provide a level playing field for northeast 
Pennsylvania in our effort to attract corporate expansion and 
relocation.
    Mr. Chairman and committee members, we need to augment 
SMCRA with special legislation to provide additional grant 
funding to stabilize, compact and revegetate mine-scarred lands 
if we truly want to put these degraded and abandoned lands back 
to productive use.
    Thank you for your time, and I will be happy to assist your 
Committee in the future.
    The Chairman. [Presiding.] Thank you, Andy.
    [The prepared statement of Mr. Skrip follows:]
    [GRAPHIC] [TIFF OMITTED] T7088.065
    
    [GRAPHIC] [TIFF OMITTED] T7088.066
    
    [GRAPHIC] [TIFF OMITTED] T7088.067
    
    [GRAPHIC] [TIFF OMITTED] T7088.068
    
    [GRAPHIC] [TIFF OMITTED] T7088.069
    
    [GRAPHIC] [TIFF OMITTED] T7088.070
    
    [GRAPHIC] [TIFF OMITTED] T7088.071
    
    [GRAPHIC] [TIFF OMITTED] T7088.072
    
    [GRAPHIC] [TIFF OMITTED] T7088.073
    
    [GRAPHIC] [TIFF OMITTED] T7088.074
    
    The Chairman. David.

                  STATEMENT OF DAVID A. DONLIN

    Mr. Donlin. Thank you Congressman, Congressman Sherwood, 
Congressman Holden. I am not an expert on anthracite mining, 
nor am I an environmental expert, but all my life has been 
spent here in the anthracite coal fields of northeastern 
Pennsylvania, with the exception of service to my country in 
the Air Force.
    For nearly 10 years I have served as the paid executive of 
the Schuylkill Chamber of Commerce, which is based in 
Pottsville. I currently serve as the volunteer president of the 
Economic Development Council of Northeastern Pennsylvania, 
which serves seven of our counties. I have served in many 
volunteer leadership positions in economic and community 
development and in human services capacities in three of our 
counties. Another current voluntary involvement is as a task 
force cochair on economic development for Schuylkill County's 
VISION, a citizen-based program that's developed a strategic 
plan for the recreation of Schuylkill County. I share the 
experience of many of my professional colleagues throughout the 
region, that of working to recreate communities and 
opportunities while having one arm tied behind our backs.
    The visionary legislative proposal that you are considering 
here in Scranton this afternoon represents the beginning of 
what I believe is the third phase of our regional restoration 
to the benefits of full American citizenship. After our region 
and our ancestors fueled the industrial revolution in America, 
we were left with the environmental devastation and the almost 
total destruction of our regional economy. Both of these 
experiences have been quantified and recorded for history.
    I also happen to believe that the invisible devastation 
that occurred to our collective human dignity still remains, 
limiting our capacity to develop our region's infrastructure or 
our collective human potential. We have been successful in 
surviving 25 percent unemployment rates over decades by self-
investment in jobs with limited pay and benefits that 
represented the post-World War II experience. Not only did we 
end up at that time beginning to export some of our finest and 
well-educated sons and daughters, because of the limited 
opportunity of that era, we were also exporting the 
environmental residuals of the devastating mining experience of 
the previous hundred years. Unfortunately, this experience 
continues today. However, positive experiences that we did 
discover at that time were found in the excellent work ethic of 
our neighbors.
    Our second phase has been more successful in that our 
excellent educational institutions working together with 
community-based local, regional, State and Federal development 
organizations have created a work force with greater skills and 
that same strong work ethic. Wages and benefits have grown, and 
unemployment has been reduced, but we still lag behind our 
State and Nation in both employment and wage and benefit 
programs, and we still lack the regional community and the 
financial capacities to tackle large projects because of the 
absence of developable land and the conditions of the land that 
we have inherited.
    This proposal, in my opinion, represents the great 
opportunity that our region needs to once again participate as 
equals in the American society. The restoration of our sacred 
lands will reestablish our collective spirit and allow all of 
us to work together to share in the great benefits of being 
United States citizens.
    Through the use of the opportunities represented in this 
program, we can work through regional mechanisms, leverage 
additional public and private investment using as examples the 
American Heritage River Initiative, the Commonwealth's Keystone 
Opportunity Zone Program and others to reclaim our land and to 
move forward as a regional community. We could recreate the 
region, and most importantly, in my opinion, to create that new 
vision of northeastern Pennsylvania, a community that shares 
the same opportunities, the same environmental qualities, the 
same spirit that has made the United States a great country.
    Through this new commitment to northeastern Pennsylvania, 
we can continue our great work ethic and create new investment 
opportunities that will make our region an attractive quality-
of-life experience. We will be able to recover many of our sons 
and daughters who have migrated away from home to rejoin their 
families, to offer an entirely new generational experience for 
new citizens that will be moving to our communities, and stop 
export of the acid mine water that pollutes all of the 
northeastern Pennsylvania tributaries all the way to the 
Chesapeake Bay.
    The anthracite mining experience of past generations has 
left us with our heritage, both good and bad. Currently, the 
anthracite industry through favorable tax credit consideration 
by the Congress back in the 1980's initiated a number of 
cogeneration facilities that provide appropriate environmental 
measures that have been absent in the past. Proposals for 
conversion of coal energy to liquid fuel and carbon research 
technology both represent new approaches to anthracite coal 
recovery that also recognize and meet environmental standards 
of the United States in the 21st Century. This proposal would 
assist us in cleaning up our region, restoring its natural 
beauty, while also recognizing new technologies that meet 
environmental requirements.
    Many regions of the United States have suffered through 
environmental and economic devastation and with public 
investment have recovered to become important cogs in the 
United States economy. Here in northeastern Pennsylvania we 
have shared our resources by fueling the industrial revolution 
which built the United States. We have done everything within 
our collective capacity to reach the American dream. The 
opportunity represented in this proposal created by our 
congressional delegation is the expressway to our future of 
national equality as a region. It is our road to full 
participation in the wonderful experience encompassed in being 
United States citizens. We thank you for your interest and look 
forward to a wonderful new partnership in recreating 
northeastern Pennsylvania.
    The Chairman. Thank you, David. And if you ever think about 
going into a second career, you might think about writing.
    [The prepared statement of Mr. Donlin follows:]
    [GRAPHIC] [TIFF OMITTED] T7088.077
    
    [GRAPHIC] [TIFF OMITTED] T7088.078
    
    [GRAPHIC] [TIFF OMITTED] T7088.079
    
    The Chairman. Bernard.

                  STATEMENT OF BERNARD McGURL

    Mr. McGurl. Thank you, Mr. Chairman. My name is Bernard 
McGurl. I am the executive director of the Lackawanna River 
Corridor Association, a nonprofit community watershed 
associated created in 1987 to promote the restoration of the 
Lackawanna River. And I'd like to thank you, Mr. Chairman, 
Congressman Sherwood, Congressman Holden, Congressman 
Kanjorski, and your staff for conducting this hearing. I am 
pleased to provide this testimony on the impacts that over 150 
years of anthracite mining and related activities have had on 
the Lackawanna River and its watershed.
    It's appropriate that this hearing occurs in the winter 
when the stark legacy of the anthracite industry is more 
visible along our rivers and hillsides. We had an ample 
opportunity to see that in our flight this morning. Issuing 
from these seemingly static scars are a wide variety of active 
and ongoing problems which continue to adversely affect the 
environment and the economy of northeast Pennsylvania.
    I believe it is useful to understand the scope of these 
complex issues in a historical context. While the intent of the 
Surface Mining Reclamation and Control Act of 1977 was to 
promote the reclamation, the level of funding authorized in 
subsequent years by Congress has been inadequate and has not 
resulted in the type of holistic and comprehensive efforts that 
many of us in the anthracite region believe are necessary to 
restore the environmental and economic vitality of the region.
    Again, in an historic context, I offer one exhibit, a map 
prepared in 1904 by William Dodge, a mining engineer. This map, 
this is a blueprint copy of it, shows the location of breakers 
up and down the Lackawanna and Susquehanna watersheds. If you 
can imagine, the rivers are like tree trunks, and the coal 
mines are like the bad fruits on there that have been polluting 
the water since mining first began. This study was commissioned 
by the State's mining engineers in cooperation with some of the 
mining companies in 1904. They knew they had a problem then. It 
was studied and it's been studied for a hundred years, and it's 
time to do something about it.
    In addition to the direct flows of acid mine drainage from 
flooded underground workings, our rivers are impacted by the 
loss of freshwater flows in the tributary streams. The mining 
that has occurred underneath these streams has resulted in the 
water leaking out of the stream beds and percolating down into 
the flooded mine voids. These result in added flows of surface 
water to the interrupted ground water flows, with both of these 
streams of water interacting with the pyritic materials in the 
coal measures forming acidic solutions which reenter the rivers 
through outflow tunnels or bore holes lower in the watersheds. 
The dried-up tributary stream corridors are then subject to 
dysfunctional morphology during storm events. These dry stream 
beds are rapidly surcharged with urban storm water flows and 
carry large quantities of coal waste sediments into the rivers.
    The surface features of abandoned mine lands are a major 
source of these sediments. Culm dumps, those large black 
mountains which are such an evident feature of the man-made 
topography, are piles of sorted coal and rock waste, a residual 
of the coal preparation process. Culm has a marginal fuel 
value. It varies from 60 to 100 percent rock, but there are 
large amounts of coal embedded in the rock material. These 
piles are expensive to remove or regrade on their own. The 
material is generally not adequate to support the construction 
of buildings. This material has obviously, with the 
cogeneration industry, a fuel value and an economic value.
    There are many culm dumps actually located adjacent to or 
actually on the Lackawanna floodplain and in several cases, in 
the riverbed itself. We have a dump up in Jessup at the mouth 
of the GrassyIsland Creek where a 20,000 cubic yard mass of 
material was washed into the creek and down into the river 
during the floods in 1996.
    Other notable features are some of the red ash piles we saw 
today. These are culm dumps where the residual coal is burned. 
In some cases these fires have continued over a 50- to 75-year 
period. These ash piles are again used for aggregate purposes. 
They have the potential of supporting some types of buildings. 
Other piles that we saw today were the rock piles and the 
overburden piles that are other features of the stripping 
activities. The stripping pits and overburden piles themselves 
are remnants of open-pit surface mining, and it's common on the 
flanks of the Lackawanna and Wyoming Valley as the coal 
outcrops toward the ridge tops. Many of these mining sites were 
created in response to peak market demands during the First and 
Second World War when there were no requirements for 
reclamation, and the expedition of the war effort meant to get 
the coal out and worry about the damages later.
    Strip mining along the outcrops was common from 1900 
through the 1960's. In fact, several strip mining activities 
continue in the northern anthracite field, although it is 
diminishing as the years go by. There are greater amounts of 
strip mining and remining activities in the southern and middle 
field.
    The use of culm material as a fuel source for auxiliary 
fuel in fluidized bed electric cogeneration plants is another 
factor affecting mine reclamation issues as well as the 
economics of site reclamation. The recent action by the U.S. 
Environmental Protection Agency proposing to classify culm 
material combustion ash as a hazardous waste may unfortunately 
and unwisely, I believe, remove the market asset of culm 
material as a fuel and make the reclamation of culm sites and 
associated mine sites more expensive and problematic. Culm ash 
has a variety of uses in reclamation work both geotechnically 
and agronomically. The loss of this product will be detrimental 
to the reclamation in the anthracite region.
    A major consideration affecting the economic reuse of 
anthracite mine sites is surface integrity and subsurface 
stability. Due to the nature of historic underground mining 
practices and surface alterations, the geotechnical 
considerations creating a buildable mine reclamationsite are 
complex. The presence and condition of underground workings, 
their depth below the surface, the condition and nature of the 
intervening rock strata and the situation of subsurface 
hydrology are all factors which must be considered by anyone 
wishing to build in the anthracite fields. The situations at 
sites within reclaimed strip mine pits have the additional 
concern of proper compaction when new building construction 
will occur.
    These conditions and situations that I have just discussed 
are only the physical challenges we face. I believe that 
Congress must give new tools, resources and capabilities to 
conduct more effective, multiobjective reclamation activities. 
We need not only reclaim the land and water resources, but to 
use the process and product to advance the economic stability 
of our communities to compete in the global market of the 21st 
century.
    The Chairman. How much more do you have?
    Mr. McGurl. Just one more page.
    I just refer briefly to some observations. I believe we 
need new tools to get reclamation work underway. I believe the 
current implementation strategy is not going to be effective 
even with new funding through existing OSM or EPA programs. I 
believe that we need a regional program that has a strong 
county and watershed-based source of local decisionmaking. I 
believe that the county/watershed reclamation should be a 
partnership effort; it should be consensus-based, and we should 
have implementation agencies on a local level. The involvement 
of State and Federal agencies with this process is vital. I 
believe that restoration programs need to have multiobjective 
outcomes. Environmental restoration needs to address land and 
water recovery. Site reuse needs to make both economic and 
environmental sense and have broad economic and community 
benefit. Projects need to be integrated into community plans 
and act as an alternative to sprawl. Each project process and 
product needs to have an ongoing goal of stewardship and 
sustainability.
    In summary, I would also note that the reclamation of 
abandoned mine sites offers this region and the Nation an 
opportunity to reutilize these valuable industrial resources. 
Many of the sites are adjacent to existing road and rail 
infracture. By focusing new industrial, commercial and 
institution uses of these abandoned mine sites, we will provide 
our communities with focused growth and further protect our 
agricultural, timberlands, watershed areas and natural habitat 
from unwise urban sprawl and speculative development. Our 
reclamation of abandoned mine lands can help us restore the 
natural functions to our rivers and watersheds, enhancing 
downstream waters such as the Chesapeake and Delaware 
estuaries.
    And last I suggest that we understand that water is a 
carrier of messages. It tells everyone downstream how well we 
understand and value our environment. Progressive action by 
Congress can provide us with the capacity to enhance the 
environmental value of the messages that flow downstream clean 
and clear from our anthracite headwaters to our great east 
coast estuaries. These are messages that can enhance the lives 
of millions of our fellow citizens. Thank you.
    The Chairman. Thank you, Bernard.
    [The prepared statement of Mr. McGurl follows:]
    [GRAPHIC] [TIFF OMITTED] T7088.080
    
    [GRAPHIC] [TIFF OMITTED] T7088.081
    
    [GRAPHIC] [TIFF OMITTED] T7088.082
    
    The Chairman. Mr. Dolence and Skrip, both of you, David, 
you're in the private sector, right?
    Mr. Skrip. Right.
    Mr. Donlin. Private, nonprofit.
    The Chairman. I am just curious. Do you think--and I 
happen--Congressman Kanjorski's reclamation bonds in the 
private sector, do you think that that can be sold? Would 
people be interested in those type of bonds? I don't mean to 
put you on the spot, but--.
    Mr. Donlin. Congressman, I think they would, first of all, 
with the Congressman's sales capacity, but more specifically 
corporate America's interested in good investment, and they're 
interested in helping us as communities progress, so I believe 
that it's a saleable commodity.
    The Chairman. I am going to make a suggestion. I can do it, 
but I think you ought to do it. You ought to invite the 
Secretary of Treasury up here and maybe Bill Archer of Ways and 
Means to try to educate them, because I think you're right. 
There are people looking to invest money, and it's something--I 
am not questioning you--I just--the private sector and not the 
Government-- .
    Mr. Kanjorski. And if I may just respond just for the 
record, Mr. Chairman, this didn't come out of a vacuum. 
Actually, while H.R. 10 was pending, the banking bill, the 
insurance industry came to me, and they asked whether or not 
they would be subjected to CRAs, and I assured them not with 
this bill. But not too far in the future the banks are going to 
come in and say, we want an even playing field, so we want to 
be excluded from CRAs, or we want the insurance companies 
included. I think that's where the trend is going to be. So I 
said to them, you know, if they wanted the support of people 
like myself--and I have not been a proponent of CRAs in the 
past--I said, why don't you do something prophylactically. So 
the insurance companies went back and they came to me and they 
said, we would like to participate in environmental and 
economic development bonds and that they buy in their portfolio 
about $20 billion of these bonds, and they said that they felt 
they could probably cover that type of expenditure very 
readily.
    So we've been working very closely with some investment 
banking houses and Wall Street, some outstanding legal firms to 
write these bonds, and I think they've given us assurance of 
about--the sale of the bond would be about 99.5 of face value, 
and they're ready market. As a matter of fact, I did talk to 
major CEOs on the President's plane, and they said they felt 
for their two companies alone they'd pick up 4- to $6 billion.
    The Chairman. I think it's a great idea, but you're going 
to have to get it through Congress. That's going to be our 
biggest problem. There has to be an interest that's evident, or 
otherwise they're going to--go ahead, David.
    Mr. Donlin. Congressman, we've had a conversation with 
Congressman Kanjorski from the Economic Development Council 
prospective--two conversations--with the intent of going to 
Congressman Sherwood and Congressman Holden and Congressman 
Gekas to establish what we've referred to as a congressional 
summit. They have the capacity to bring the government 
resources to us. We have the capacity to recruit the private 
sector, to sit down and start some real serious dialog.
    The Chairman. We have to change the laws before this can 
happen, and it's going to take some effort in the private 
sector to let Congressmen know that this is a good idea, and 
that means the administration, too. They have to get on board, 
and I am sure you've been talking to them about this.
    Mr. McGurl, I am sure you're aware I am a plaintiff against 
the Clinton administration on the heritage rivers. I want clean 
water, and I want you to have it, and I want it, and I want my 
rivers clean. I just don't like the administration taking the 
congressional prerogative by executive order. And this 
administration has been very guilty of doing this in many, many 
different areas. And I believe in this government very 
strongly.
    America better wake up. We don't want a king, regardless of 
what administration. We don't want the use of executive order. 
This is a congressional obligation because under the proposal 
now, you may have the money today, but it can be taken away 
from you tomorrow. That is the role of the Congress, and it 
should act appropriately, and very frankly, right now I could 
not pass a heritage river. I think the administration is wrong, 
but other than that, I think you make some great points.
    By the way, are you supporting the Carroll legislation?
    Mr. McGurl. Yes. I am.
    The Chairman. Your recognition goes a lot higher.
    Mr. McGurl. I am glad you brought that up. I was looking 
for an opportunity to encourage the process through the 
appropriations committee.
    The Chairman. You made some very good comments in your 
presentation and most of them I support. I think all of you 
have made good comments. Mr. Sherwood.
    Mr. Sherwood. Dave, Andy gave some very definite thoughts 
about bringing industry in and they had reasons not to come 
because of the anthracite scarring and your testimony was a 
little more esoteric and I didn't hear that from you. But have 
you had that same experience?
    Mr. Donlin. Congressman, as Andy was testifying--and I was 
not privy to his testimony--it was recreating our actual 
experience in Schuylkill County, absolutely, the same 
experience.
    Mr. Skrip. If I can add to that, Congressman Kanjorski 
mentioned about selling these bonds to insurance companies. And 
in Lackawanna County there's a total of five insurance 
companies that came into the area that we have contact with, 
Prudential, Met Life, Cigna, Kemper, AIG. Not one of these 
companies are in a brown field site. They all went for 
greenfield sites because of the risk involved and that's a 
pretty good example and we do have contact with these insurance 
companies.
    The Chairman. All of you mentioned it and it was mentioned 
on the flight today about compacting when we do reclamation 
work. Should we change that where they have to compact because 
it takes 35 to 40 years now--.
    Mr. Skrip. You're absolutely right. The sites that you saw 
today, the greenfield sites that are now reclaimed, they were 
big holes and the material was just dumped in the holes. They 
were not compacted. A company just can't locate on that 
particular site. It has to be compacted. Or for this building 
here, as an example, there's probably more than a half dozen 
veins of coal underneath this building and I would bet there 
was either caissons, pylons or concrete foundations underneath 
the foundation itself just to support the building. So again we 
need more than just grading off the site. We need proper 
compaction of these sites to buildupon.
    The Chairman. What about the areas of deep shaft mine? Most 
of what we've seen today, other than when we went to Don's 
area, was strip mining or open surface mining. The shaft 
themselves, if we reclaim the land on top is there enough 
weight to support--do you have to compact it if there's a shaft 
underneath there or does that have to be dropped?
    Mr. Skrip. The problem is we only see part of the problem 
when you fly over the area. The biggest problem is what you 
don't see. And for the most part the mining engineers had very 
good mapping of where the shafts were and at times you have to 
fill them in, flush them, whatever it might take. So again, 
it's all risky business for a company to--.
    The Chairman. Part of this reclamation that we're talking 
about--that I heard 15 billion, 4.5 billion, all of the 
billions of dollars, does that include imploding those shafts 
to make it stable?
    Mr. Skrip. Or filling them in, yes.
    The Chairman. Wouldn't imploding make it a lot easier?
    Mr. Kanjorski. You really can't do it. You'd be fracturing 
everything above it. Plus, the fly ash and with the culm banks, 
pulverizing and flushing and filling the mines and they're 
getting up to 1 or 2 or 3,000 pounds per square inch so that 
it's a tremendous support system.
    The Chairman. Within the shaft itself.
    Mr. Kanjorski. Right.
    The Chairman. We could require the surface mining group, 
when they do reclaim or with this organization, the area around 
the municipality should be compacted or it has no value.
    Mr. Kanjorski. Right.
    The Chairman. You wouldn't have to do it at all.
    Mr. Kanjorski. No. Right. That's why the comprehensive plan 
is necessary.
    The Chairman. OK. Don.
    Mr. Sherwood. We talked about that on the way over. We'd 
have to have some rules. If it's out in the middle of a 
mountain somewhere you wouldn't have to spend all the money to 
compact it like you're building a highway but if it's liable to 
be used for industrial purposes, when it's being done it's 
gotta be compacted then. And the people that come in are very 
worried about the engineering costs that they'd have to go 
through to put a building up here because of the underground 
mining and the voids and so that's something that has to all be 
worked out with this.
    The Chairman. Before I go to Tim, my building--the state 
has no liability for those that voluntarily clean up something. 
These reclamation areas which we're talking about, if we were 
to clean them up, wouldn't it be advisable to put in non-
liability for someone that goes in and uses it? What I am 
saying--let's say if someone finally decides there's something 
toxic on the site after--if I am Procter and Gamble, I 
shouldn't be liable. I mean somewhere along the line there 
should be some way to make sure that they won't--make it 
attractive that they use the property.
    Mr. Skrip. There is state law in place to cover that. And 
for the most part the mine scarred lands that we have, the 
black fields, if you will, or the gray fields are not 
contaminated. They're just scarred.
    The Chairman. The areas have been burned were 
contaminated--.
    Mr. Skrip. Stripped or scarred--.
    The Chairman. But they're not contaminated.
    Mr. Kanjorski. They're not contaminated. Our problem is 
filling, backfilling properly and supporting--underlying 
support. But you can't really get to it project by project.
    The Chairman. I'll right. Congressman.
    Mr. Holden. Dave, I guess of all the counties in the 
anthracite field, I believe I am right that Schuylkill is 
probably the most active in current mining operations. How many 
miners do we have employed in Schuylkill County now?
    Mr. Donlin. We have about 900 now of which 300 are in the 
cogeneration field from about 600 and that's from a peak of 
140,000 in about 1930.
    Mr. Kanjorski. You've got two-thirds of the active mining.
    Mr. Donlin. Right.
    Mr. Holden. Two-thirds. OK. So we certainly wouldn't want 
to do anything to disturb or harm that in any legislative 
proposal. But going back to Paul's concept or his idea here, in 
Schuylkill, the information I received is there's about 17,000 
acres of unclaimed coal lands. Do you think most of that would 
be privately owned or publicly owned? Do the commissioners have 
control over most of it or--.
    Mr. Donlin. Of unclaimed?
    Mr. Holden. Yes.
    Mr. Donlin. I believe most of that probably went into tax 
default and it's controlled by the county.
    Mr. Sherwood. You mean unreclaimed, don't you? I mean you 
say unclaimed--.
    Mr. Donlin. Right.
    Mr. Holden. It's not reclaimed. Right. Do you think the 
commissioner has any control over it? I know you don't know for 
sure.
    Mr. Donlin. I would say the vast majority would be held by 
the county commissioners.
    Mr. Holden. OK. But also now I guess we have continuous 
mine operations that were in existence predating the 1970's 
laws that would have a great deal of acreage that they are not 
responsible to reclaim. So if Paul's idea would move forward, 
we would have to have some way of eminent domaining that land 
so we could clean that up also.
    Mr. Kanjorski. Well, that's been one of the problems. 
Without the ability to get all of the lands as part of the 
project, you can't clean up 500 acres and then have 500 acres 
next to it that remains deteriorated. So there are ways of--but 
by doing it comprehensively the theory is you could deal with 
the owners, you could deal with the prospective re-users at 
some point to get the job done and you may have the capacity 
but under the authority's act of Pennsylvania you'd have the 
power of eminent domaining it.
    But I've talked to major holdings and I think that with 
little difficulty we could probably acquire 90,000 acres that 
they understand or--they really like to be excused from further 
liability and that would be part of the key to recovery, that 
they'd have no future liability. I think we'd end up getting a 
good portion of Girardville, a lot of the older coal companies 
down there--there are two coal companies around the Hazleton 
area that have 25,000 acres and I think you have a large one up 
here of about 10 or 15,000 acres. The fact of the matter is I 
don't think that's much of a problem as long as we have one 
entity that's dealing with it on a consistent basis so we don't 
have every municipality being called upon to do their own 
arrangement or deal.
    The Chairman. A bit of advice is that any legislation that 
we work on, let's not put the accommodation procedure. Let's 
leave it up to the state because you're going to raise all 
kinds of--.
    Mr. Kanjorski. Absolutely.
    The Chairman. Just leave it up to the state or the 
municipalities, whatever you prefer. Mr. Holden, do you have 
any other questions? I'd like to thank you for testifying and I 
appreciate your time. You will have clean rivers and I'll 
guarantee it. They will be clean.
    Mr. Kanjorski. In less than 400 years.
    The Chairman. As long as I am mature enough to catch a 
trout.
    Mr. Holden. We've got great trout fishing in the 
Lackawanna.
    Mr. Sherwood. But the interesting thing to me was we had 
two men here who have spent their careers in economic 
development and one who has spent his career in environmental 
concerns and they by and large--they told us the same thing and 
that's very important.
    The Chairman. Thank you, Gentlemen. Appreciate it very 
much.
    The next panel is Kenneth M. Klemow, Ph.D., Certified 
Senior Ecologist and Botanist Professor of Biology, Wilkes 
University; Mr. Alex E. Rogers, the Upper Susquehanna 
Lackawanna Watershed American Heritage Rivers Initiative, the 
Pennsylvania GIS Consortium; Mr. Robert Hughes, Eastern 
Pennsylvania Coalition for Abandoned Mine Reclamation, EPCAMR. 
Gentlemen, please.

    STATEMENT OF KENNETH M. KLEMOW, Ph.D., CERTIFIED SENIOR 
ECOLOGIST AND BOTANIST, PROFESSOR OF BIOLOGY, WILKES UNIVERSITY

    Mr. Klemow. My name is Kenneth Klemow, and I am on faculty 
of Wilkes University. I am an ecologist and a botanist and I 
teach courses in those areas.
    I do want to thank the House Resources Committee for giving 
me the opportunity to say a few words about the ecological 
effects of mining, which actually could be a rather complicated 
topic. I want to try to summarize the high points from the ten 
page essay that I put together and that's in your packet. I do 
want to apologize for getting the date wrong on the original 
draft of the essay. Some of us are still operating, in the past 
millenium. Regardless, I do refer you to the more complete 
comments there.
    Ecologically, mining has left a profound environmental 
impact on Northeastern Pennsylvania and in fact one of the 
reasons why I chose to be an ecologist, being a native of 
Hazleton, is I wanted to help solve some of these problems. 
Therefore I especially apppreciate the opportunity to testify 
at this hearing.
    To be fair to the mine operators, most of the mining-
related damage that we have occurred before laws protecting the 
environment were enacted and before the value of natural 
ecosystems was recognized. Often you hear ecologists railing 
against mine operators, but the rules were different then. Much 
of the mining occurred as we were fighting wars, so 
environmental concerns took a lower priority.
    As I note in my essay, the impacts of mining has affected 
both terrestrial and aquatic ecosystems covering 100,000 to, 
120,000 acres, In general the ecological impacts of mining have 
been to reduce biological diversity and a number of very 
important ecological functions and values like ecological 
productivity, water purification, erosion control and 
sustainability. These are all very important functions that we 
now no longer have in mine damaged areas. Most of the damage to 
terrestrial systems--and again I'd like to contrast between 
terrestrial versus aquatic--has been by the deposition of a 
stony infertile substrate. That substrate has high 
concentrations of toxic minerals like iron and aluminum. It 
also has high acidity, is very poor in holding onto water and 
during warm summer days, it feels like you're walking on a hot 
asphalt parking lot. Temperatures can exceed 150 degrees and so 
imagine if you were a little tiny plant trying to grow in that 
thing and it's real, real hard. And so because of these 
stressful conditions, plants have a very difficult time 
revegetating mine sites. Generally when you go out to these 
sites you see a very scrubby community composed of low-value 
species like gray birch, trembling aspen, blackberry and 
spotted knapweed.
    Likewise, animal species are also very relatively sparse in 
mine-impacted sites because there's just not enough water and 
food is limited. And as you have heard before, culm banks also 
create water pollution because they allow rain water to 
infiltrate thereby getting into the acid bearing rocks.
    Mining has also impacted aquatic communities in the form of 
lakes, creeks, and wetlands and these again are viewed as being 
critical habitats. I am sure being from Alaska you would be 
appreciative of that.
    Large scale earth moving and deposition of mine land 
obliterated all these aquatic habitats. And in fact, in many 
cases--I know that Bernie mentioned this on the last panel--but 
we have a situation where creeks that drain, mountains, lose 
flow as they hit the mine lands. The clean water is forced 
underground and it becomes polluted which is a real big 
problem.
    Another way of looking at the problem is that we have a 
disconnect between the headwater areas and the lower regions of 
the watershed, based on recent studies we have done, we have 
seen that in headwater areas, populations of stream-dwelling 
species are reduced because of that and that's a problem. 
Again, we all talked about acid mine drainage and the problems 
that it causes. In fact, it's interesting because I am doing a 
watershed assessment with the USGS streams that are impacted by 
acid mine drainage are essentially dead with respect to macro 
in vertebrates--the little bugs that fish use as food.
    Well, how do we fix the problem? As far as terrestrial 
systems go, we can regrade the site, add fertilizer, we can add 
seeds of grasses and legumes. This leads to a meadow like 
condition. While I think that's better than a culm bank, I have 
misgivings about the current methods of reclamation and 
specifically methods that basically create a meadow. Eastern 
Pennsylvania is part of the eastern decidous forest, and thus 
woodland is a more natural ecosystem type. If we do decide to 
do reclamation for green space, we can't create meadows we must 
adopt a more smart reclamation technique that I'd be happy to 
talk about in more detail.
    In terms of addressing aquatic situations, there are many 
things we can do that actually act to work together but we 
really must adopt an ecological stream restoration approach. 
Using that approach converts degrading watercourse into natural 
watercourses. This is being done quite a bit out in the western 
part of the Country. However not much ecological stream 
restoration is being done here in the eastern part. I think 
there's a tremendous potential to do ecological stream 
restoration in the anthracite fields.
    And, again, we talked about treating acid mine drainage by 
use of constructive wetlands. I've been involved in a couple of 
projects like that with the earth conservancy. Our second 
project that I'd be happy to show you, is a wetland that is 97 
percent effective in removing 300 pounds of iron per day. That 
mine drainage treatment project is in Hanover Township in 
Luzerne County.
    To me it's unfortunate that here we are in the Year 2000 
and we're still talking about fixing the environmental impact 
of mining and to implement good reclamation techniques. I think 
that considerable resources need to be put into this effort.
    Also, as Congressman Kanjorski mentioned, we do have to 
look at the big picture. We can't just simply go on a project-
by-project basis. By looking at the big picture, we can 
actually get rid of the causes and that will allow us to 
prevent pollution, therefore we don't have to treat as much if 
we can get to the causes. You've been mentioning that it would 
take, what, about 400 years to wait for the abandoned mine land 
fund to reclaim the area. Well, I can tell you that nature can 
clean it up on its own given 400 to 500 years. I think if you 
condemn this region to the current level of devastation for 
centuries, that would be very bad public policy. I think we 
have the know-how, we have the will, we just need the 
resources. We can and must do better to do reclamation. And I 
think, again, that we need to have a collaboration of agency 
officials, the private sector and local scientists who are 
interested. I think that once we get everybody working 
together, we will be able to solve the problem here. So I thank 
you very much.
    The Chairman. Thank you, Doctor, very much. Alex.
    [The prepared statement of Mr. Klemow follows:]
    [GRAPHIC] [TIFF OMITTED] T7088.083
    
    [GRAPHIC] [TIFF OMITTED] T7088.084
    
    [GRAPHIC] [TIFF OMITTED] T7088.085
    
    [GRAPHIC] [TIFF OMITTED] T7088.086
    
    [GRAPHIC] [TIFF OMITTED] T7088.087
    
    [GRAPHIC] [TIFF OMITTED] T7088.088
    
    [GRAPHIC] [TIFF OMITTED] T7088.089
    
    [GRAPHIC] [TIFF OMITTED] T7088.090
    
    [GRAPHIC] [TIFF OMITTED] T7088.091
    
    [GRAPHIC] [TIFF OMITTED] T7088.092
    
    [GRAPHIC] [TIFF OMITTED] T7088.093
    
 STATEMENT OF ALEX E. ROGERS, THE UPPER SUSQUEHANNA-LACKAWANNA 
    WATERSHED AMERICAN HERITAGE RIVERS INITIATIVE, AND THE 
                  PENNSYLVANIA GIS CONSORTIUM

    Mr. Rogers. Mr. Chairman, good afternoon and thankyou to 
all the Members here for including me in this group of 
witnesses. I am here today on behalf of the local American 
Heritage Rivers Initiative steering committee, and the 
Pennsylvania GIS Consortium, which is a nonprofit organization 
jointly administered by two colleges in this area and that is 
working on issues that Ken talked about with respect to the big 
picture. I want to tell you a little bit about the big picture 
that we're working on.
    I understand the American Heritage Rivers Initiative has 
some controversy associated with it with respect to the 
authorization or initiation of the project but I want to tell 
you, Mr. Chairman, and other Members of the Committee, that the 
program has had a tremendously valuable effect here locally in 
this region. What it has done is brought together communities 
and environmental groups.
    Congressman Sherwood you mentioned this, the chamber of 
commerce sits at the same table now with environmental groups 
and also at that table are county leaders up here in Lackawanna 
County, county leaders in Luzerne and then down to Congressman 
Holden's district. What this program has done on the local 
level is bring people together to talk about a common challenge 
that--no words could say it more eloquently than the tour you 
took today that those black mountains of coal waste that you 
saw--they're not only the unfortunate tombstones of the 
anthracite mining industry that largely doesn't exist, but they 
are truly the barriers that stand between today's environmental 
and economic problems here in the region and I think tomorrow's 
healthier and more robust Northeastern Pennsylvania.
    Who have you heard from today? You've heard from local 
residents who live adjacent to these piles. You saw this 
morning how closely those abandoned mine sites are to 
communities. It is strangling these communities. They cannot 
grow. It is isolating them and it has, I think, as Congressman 
Kanjorski said, a tremendous effect on the psychology of the 
area.
    Who else have you heard from? You've heard from business 
groups that have told you that they lose prospective companies 
who look at the area and turn away as fast as they got here and 
you heard from the Federal and state administrators of 
programs. It is a sad state that 23 years into this Federal 
program the OSM, as they testified today, has cleaned up less 
than one-tenth of the problems.
    What's the effect on the local economy? I want to talk 
about several things. First, we have a dwindling supply of 
flatland and clean water. As an earlier witness said, if we 
don't clean these abandoned mine sites and get them compacted 
so that businesses can locate there, we're going to destroy the 
few pristine sites that still exist.
    What else? Population loss, I think Congressman Kanjorski 
talked about this. This area--this region----is virtually 
leading the Nation in population decline. From 1990 to 1998, 
this metropolitan statistical area lost more than 23,000 
people. That's a 3.6 percent decline. Of all of the MSA's 
nationwide, this one experienced the third largest population 
decline and that's on top of population decline that existed 
years before. Our local groups have tracked it. Between 1930 
and 1970, our population reduction was 30 percent and then 
between 1970 and 1980, we lost more.
    What else? We have higher unemployment levels. To be sure, 
we have made significant progress in bringing unemployment 
levels down but we have been consistently above the national 
and state average and I think one of the reasons for that is 
what you saw today.
    So what can we do to mend this region's land and water? I 
talked about the regional cooperation. We are starting with an 
environmental master plan and I brought for you today just a 
quick poster that will provide a snapshop of some of the things 
we're doing. Congressman Kanjorski has been the leader in 
bringing together groups in the area to provide a master plan, 
a GIS environmental master plan, of the entire anthracite 
region. Thanks to his leadership, we have scientists like Ken 
and others, through this Pennsylvania GIS Consortium that I've 
talked about, who are studying all of the topography, the 
hydrology, the population concentration of the entire region. 
What that means is if this Committee and this Congress are 
successful in freeing money for this region, we're going to 
know how to spend it in the most cost-effective and sensible 
way.
    People have made reference to the Chesapeake Bay. I just 
want to draw your attention to the right side of this poster. 
You can see clearly that the anthracite region in green flows 
right into the Susquehanna and then right down into the 
Chesapeake Bay. Today, as with every day in Northeastern 
Pennsylvania, 200 million gallons of acid mine drainage will 
flow from this region's mountains and strip-mine holes into the 
Susquehanna River. And today, as with every day in this region, 
this drainage will contain 740 tons of sulfate and 51 tons of 
iron and that's why today, as with every day, our region is the 
single largest industrial, polluter of the Chesapeake Bay.
    But we're going to have this GIS environmental study done 
very quickly so that we don't have just another fancy study to 
sit on a shelf, but we have a blueprint for how best to invest 
the Federal money that we hope or the private sector money that 
we hope is freed up for this area. And we will know, instead of 
the patchwork problems that we've been able to address today, 
how doing work in one area will effect the entire region. We 
will develop priorities and we will have the most sophisticated 
technology available to make informed decisions about investing 
this money. So I appreciate your attention to this problem and 
thank you for the invitation to appear.
    The Chairman. Thank you, Alex. Robert.
    [The prepared statement of Mr. Rogers follows:]
    [GRAPHIC] [TIFF OMITTED] T7088.094
    
    [GRAPHIC] [TIFF OMITTED] T7088.095
    
    [GRAPHIC] [TIFF OMITTED] T7088.096
    
    [GRAPHIC] [TIFF OMITTED] T7088.097
    
    [GRAPHIC] [TIFF OMITTED] T7088.098
    
    [GRAPHIC] [TIFF OMITTED] T7088.099
    
    [GRAPHIC] [TIFF OMITTED] T7088.100
    
    [GRAPHIC] [TIFF OMITTED] T7088.101
    
    [GRAPHIC] [TIFF OMITTED] T7088.102
    
    [GRAPHIC] [TIFF OMITTED] T7088.103
    
    [GRAPHIC] [TIFF OMITTED] T7088.104
    
STATEMENT OF ROBERT HUGHES, EASTERN PENNSYLVANIA COALITION FOR 
                   ABANDONED MINE RECLAMATION

    Mr. Hughes. Mr. Chairman and Members of the Committee. My 
name is Robert Hughes, a native of the Wilkes-Barre area 
located in the northern anthracite coal fields just south of 
Scranton here and a resident of the Borough of St. Clair down 
in Schuylkill County, which is located in the heart of the 
southern anthracite coal fields. I am here today as the 
regional coordinator representing the Eastern Pennsylvania 
Coalition for Abandoned Mine Reclamation.
    First of all, I'd like to thank you for giving EPCAMR this 
opportunity to address you this afternoon on the familiarizing 
Members of the Committee with mine land reclamation problems 
specific to Northeastern Pa.
    As for background on the Coalition, we are a regional 
nonprofit organization made up of representatives of the 
conservation districts from 9 out of 16 eastern Pennsylvania 
coal counties affected by the AMD and abandoned mine lands 
directly, the anthracite industry, over 20 local watershed 
organizations with well over a thousand volunteers attached to 
those organizations made up of sportsmen groups, conservation 
clubs, conservancies, and representatives from the general 
public. Our Coalition was formed in 1996 to identify how the 
county conservation districts and their local cooperating 
organizations could promote and contribute to local, state and 
Federal mine reclamation efforts. Our mission is to encourage 
the reclamation and redevelopment of those abandoned mine lands 
and remediation of waters affected by past mining practices in 
Eastern Pennsylvania.
    An increasingly important role of our Coalition has been to 
serve as a liaison between the local watershed organizations, 
private businesses, economic development interests, the mining 
industry, DEP, Bureau of Abandoned Mine Reclamation, the 
Federal agencies and other groups involved in abandoned mine 
reclamation. We are also actively involved in raising the 
awareness of the general public, our schools and our elected 
officials on a local, state, Federal and national level 
regarding these issues related to abandoned mine lands.
    It's my job to provide technical assistance to support the 
conservation districts and these watershed groups through 
assisting in grant writing, establishing public education and 
outreach programs, and rejuvenating local watershed groups. I 
am proud to say there are more local watershed organizations 
active in abandoned mine drainage remediation efforts in 
Pennsylvania than there are in any other state in the Nation. 
Well over 50 groups in Pennsylvania make up this contingency. I 
work side by side with these groups in Eastern Pennsylvania to 
inform and educate the public on AMD and AML issues and 
technical interests relative to the specific reclamation and 
remediation techniques being proposed for sites and discharges 
in their local watersheds.
    First, as a member of the National Coalition for Abandoned 
Mine Reclamation, I know that our Coalition would like to see 
the Rural Abandoned Mine Program (RAMP), which in the past has 
been financed by the AML fund and administered by the USDA-
Natural Resources and Conservation Service, be supported once 
again. The RAMP has not been funded since 1996. This program 
worked through local communities, community volunteers, 
conservation districts and other agencies, to solve and address 
many AML problems. The NRCS provided most of the technical 
assistance, natural resource planning, design and construction 
of many of the earlier AMD and AML projects. Today in Eastern 
Pennsylvania there are few staff available who have the time or 
financial resources under other Federal programs that they are 
administering to fully support and commit their time to 
abandoned mine reclamation efforts in Eastern Pennsylvania. 
Watershed organizations, county conservation districts and 
reclamation related groups will tell you that the one area that 
truly we need assistance in is the design and construction of 
some of these passive treatment systems to abate abandoned mine 
drainage. NRCS used to--under RAMP, used to fulfill that need 
very efficiently.
    Our Coalition would like to continue to establish an open 
line of communication with the Office of Surface Mining, DEP, 
Bureau of Abandoned Mine Reclamation, Bureau of Mineral 
Resources, Pennsylvania Mining Reclamation Advisory Board, 
economic development interests, the chamber of commerces, the 
IDAs and the EPA in the near future to discuss the flexibility 
on certain regulations especially when the laws deal with 
redevelopment of abandoned mine lands. EPCAMR is very 
interested in playing a role in conducting outreach meetings 
and coordination efforts, if there is enough interest to 
develop regional task forces similar to the Luzerne-Lackawanna 
Counties Brown Fields/Black Fields Task Force, to address some 
of these obstacles to the regulations.
    The mining industry of the past needs to be looked at in 
the future as potential brown field-like redevelopment areas we 
call black fields or gray fields today. Many of these sites 
have great potential for redevelopment due to their proximity 
of existing infrastructure, potential boost to the local 
economy, elimination of public health and safety features, 
clean up of ground water and surface water contamination, and 
alleviation of the pressure on businesses that build on 
previously undeveloped non-urban area green fields, pristine 
forestlands and farmlands. Yet very little Federal moneys have 
been released or granted to inventory and assess these areas 
under the AML program. Not much Federal funding has come to the 
anthracite region under the EPA's as well as under such 
programs such as the Brown fields Economic Redevelopment 
Initiative either.
    There are thousands of acres that surround numerous 
communities in the anthracite coal region that remain today as 
unproductive as they did more than a hundred years ago. We 
should concentrate our efforts on having our communities be 
able to have the access to these undeveloped acres for social, 
economic and as well as environmental uses. Expanding and 
reconnecting our communities separated by mountains of culm, 
creation of open space areas, wildlife habitat enhancement, 
water quality improvements, recreational opportunities and 
economic development interests of these abandoned mine lands 
should be of the utmost importance.
    Mine reclamation restores communities and enables them to 
rebuild their economic base to attract more sustainable 
businesses and jobs. Who wants to locate a business in a place 
that looks like the surface of the moon, has orange-tainted 
streams and poor water quality within its community, a poor 
local economy and an unhealthy population. We should be at 
least asking Congress to demand that the SMCRA Promise be kept. 
Our communities have lived--and learned the hard way long 
enough. Thousands of people in Pennsylvania support watershed 
and reclamation activities through their contributions of time, 
effort, donations and through volunteering. The people of 
Pennsylvania understand that without clean water, the social, 
recreation, economic and environmental vitality of the 
anthracite region will be severely disadvantaged for our future 
generations.
    With regard to your second question as to how the coalition 
describes the successes and failure of reclamation efforts of 
abandoned mine lands as well as present new solutions to 
improve past practices, first and foremost local community 
support for reclamation and remediation projects needs to be in 
place for a successful project to occur. Tapping local 
government municipalities, township supervisors, contracting 
and construction companies for volunteer services such as the 
use of a front-end loader, a bulldozer, dump truck for hauling 
stone, pipe, even landfill liner are all crucial to the success 
of locally driven environmental restoration projects. Local 
involvement often expands what at first might be a narrowly 
focused project to a more comprehensive watershed effort as 
additional people and financial resources are brought to the 
table. These additional resources often assure that the efforts 
will continue long after the completion of an initial project. 
Federal programs need to be matched with the state grant 
dollars to continually support the efforts of such groups. You 
cannot ask for a better return on your investment when sweat 
equity, as I like to call it, of the local volunteers committed 
to cleaning up abandoned mine land impacts in their watershed 
is involved.
    There is still hope for the anthracite region. The key to 
the Coalition's success has been our ability to involve local 
groups in the up-front process of developing watershed 
restoration plans, identifying problems, assessing the impacts, 
coming up with feasible solutions and drawing on the strengths 
of each of our partners. Each group has an active role in the 
decisionmaking process. However, we are at a point where action 
must be taken to continue the work of abandoned mine land 
reclamation and AMD remediation and restoration of our streams 
in Pennsylvania or our local efforts may be stifled and fall by 
the way side.
    The Chairman. Robert, how much more do you have?
    Mr. Hughes. Just a sentence.
    The Chairman. OK.
    Mr. Hughes. More Federal funding to Northeastern 
Pennsylvania will assure that local watershed restoration 
efforts can continue complimenting the reclamation work that is 
completed by our state Bureau of Abandoned Mine Reclamation on 
a comprehensive watershed basis. Thank you.
    [The prepared statement of Mr. Hughes follows:]
    [GRAPHIC] [TIFF OMITTED] T7088.105
    
    [GRAPHIC] [TIFF OMITTED] T7088.106
    
    [GRAPHIC] [TIFF OMITTED] T7088.107
    
    [GRAPHIC] [TIFF OMITTED] T7088.108
    
    [GRAPHIC] [TIFF OMITTED] T7088.109
    
    [GRAPHIC] [TIFF OMITTED] T7088.110
    
    [GRAPHIC] [TIFF OMITTED] T7088.111
    
    [GRAPHIC] [TIFF OMITTED] T7088.112
    
    [GRAPHIC] [TIFF OMITTED] T7088.116
    
    [GRAPHIC] [TIFF OMITTED] T7088.117
    
    The Chairman. Thank you. Just out of curiosity, have you 
two sat in the same meetings together?
    Mr. Rogers. Oh, yes.
    The Chairman. So you are working together.
    Mr. Rogers. Oh, you bet. As I said--.
    The Chairman. You're not a separate effort.
    Mr. Hughes. I am a member of the American Heritage River 
Steering committee as well.
    The Chairman. If we're going to do this we have to do it 
all together and make sure that we work together to work on it. 
Doctor, you're aware that the OSM is actively working now on 
reforestation.
    Mr. Klemow. That's one of their strategies but when you 
look at much of the reclamation that's done around here--and 
actually I think more reclamation is done more by the state, if 
I am not mistaken, than by OSM--their goal is to create a 
meadow.
    The Chairman. It's probably easier. But I have to agree 
with you, I'd like to see more trees growing. I think it is--I 
am the wildlife specialist and I like to see trees that produce 
certain foods for certain wildlife so I can pursue them.
    Mr. Klemow. I guess one of the reasons for lack of trees is 
that the species mixes that are sown on the site are herbs and 
grasses. Even worse, they're all foreign species that are 
actually aliens to this area.
    The Chairman. Why?
    Mr. Klemow. Mainly to establish a vegetable cover quickly.
    The Chairman. Well, that's the meadow. I am talking about 
the trees. Can they plant trees--.
    Mr. Kanjorski. No, not in the present morphology. They just 
backfill with the rock and then they put a half inch or inch of 
topsoil and it can't sustain vegetation of a tree. That's the 
problem. If we did it comprehensively we could move earth and 
then get the clays and the soils necessary to sustain a root 
system for a tree. It isn't done that way.
    The Chairman. Well, I am hoping that they look at the 
possibility. I don't think trees would be that much more 
difficult if we have the water base. I do believe it could 
occur.
    Mr. Klemow. See, other problem is that the meadow actually 
prevents trees from coming in.
    Mr. Sherwood. If you look at the strip mining piles, they 
are covered with white birch.
    Mr. Klemow. Gray birch, yes.
    Mr. Sherwood. White birch, gray birch. OK. But not knowing 
about gray birch--but that must grow on those acidic sites.
    Mr. Klemow. Right.
    Mr. Sherwood. So therefore, why wouldn't trees grow after 
they get them--I mean I know a strict meadow inhibits the tree 
but it's not easy to start a Pennsylvania forest from scratch 
because the normal trees that are planted in the west aren't 
our native species anyway. It's very easy if you cut one over 
to have it regenerate but not when you bulldoze. So what is the 
solution?
    Mr. Klemow. I think we just have to be a little bit patient 
because if you want to reclaim a site and go out there 3 months 
later and see a lush community, then all you're going to be 
able to grow is a meadow. But if you're willing to wait two to 
4 years and then go out, eventually you will have the forest 
that will be starting to come in. As a matter of fact, there's 
some areas on Earth Conservancy lands that have been rough 
graded that are now starting to look very good because you get 
the revegetation--.
    The Chairman. If you do birch or gray birch growing, that's 
a very short leafed species and the more desirable species will 
grow up in the shade.
    Mr. Klemow. If you amend the soil. Right now in a culm 
bank, I don't see that happening that much.
    The Chairman. Let me go back. Alex, if what you say is 
true; that your consortium is working well together and you 
have the plan, why do we have to have a plan? All we have to do 
is to figure out how to sell the bonds so the plan works, 
right?
    Mr. Rogers. Well, I think we're working on parallel tracks. 
We are developing the plan. We've discovered that many of the 
Federal agencies weren't talking to each other--.
    The Chairman. Well, actually they never do.
    Mr. Rogers. But really for the first time we're going to 
build an integrated data base inventory of acid mine drainage 
outfalls in the area, abandoned mine land sites. This will be 
the blueprint that when the money frees up, we will know how to 
spend it.
    The Chairman. That goes back. Why do I have to use the 
Federal agencies at all if you have a plan and the consortium 
in place and we fund it?
    Mr. Rogers. If you fund it, I think that's exactly right. I 
think you'll streamline the Government significantly.
    The Chairman. I am afraid, with all do respect to my 
friend, if the EPA gets involved in it--which reminds me, do 
you know--every time we have cleanup area here, reclaimed area, 
an EIS statement has to be filed?
    Mr. Rogers. I believe that's right.
    The Chairman. That takes time. That ought to be eliminated.
    Mr. Kanjorski. And expensive.
    The Chairman. And expensive. I mean that's just an idea.
    Mr. Kanjorski. The only provision, Mr. Chairman, that we 
put in for the corporation was for the comfort level of the 
Congress that the funds would properly be used. I mean we are 
talking about a larger--.
    The Chairman. Right now they're so uncomfortable, some of 
those agencies, they might be more comfortable--.
    Mr. Rogers. Well, we would certainly be open to 
Congressional administrative oversight. But you hit on the 
right point, We are taking matters into our own hands and if 
this funding proposal comes through, we're going to clean up 
this area significantly quicker than the Federal or state 
programs.
    The Chairman. Mr. Sherwood.
    Mr. Sherwood. Mr. Hughes, are you familiar with the 
limestone bed that was set up in Sullivan County? How is that 
working?
    Mr. Hughes. Right now I think it's been about 6 months 
since it's in operation, that system is on the big Loyalsock 
Creek in Sullivan County.
    Mr. Sherwood. Yes. One of the great trout streams in the 
northeast, Don.
    Mr. Hughes. I was put in by the state Bureau of Abandoned 
Mine Reclamation and after 6 months' time now it's not enough 
time that you would get the fluctuations in the water quality 
out so that it would become a more steady state. However, just 
in the 6-months' time that particular stream was very low in 
pH, probably about 4 and-a-half. It had a lot of aluminum--
metal contamination to the water and some iron involved. When 
they put in the limestone bed trenching system in there, it's 
called a Successive Alkaline Producing System, a SAP system is 
what we call it, as one method of treatment. Having, run the 
water through that limestone bed and come out the other end at 
the discharge pipe, the pH is holding pretty steady at 6 and-a-
half right now and water quality down stream has been improved 
dramatically just over the course of 6 months. The limestone 
with its high calcium carbonate content allows a lot of the 
metals to precipitate out a lot quicker and the pH in the water 
adjusts and becomes a little bit higher so the downstream 
impacts of that particular stream are going to be positively 
impacted in the future.
    The Chairman. Will those rocks have to be removed and 
replaced?
    Mr. Sherwood. That's exactly the question I asked him when 
I went to see it.
    Mr. Hughes. I think in that particular situation up there, 
if they have a flushing mechanism in the place that's at the 
bottom of the bed--if they have a PVC pipe flushing system, 
they would manually be able to go out there and flush that 
every now and then to take out any flock that may be left in 
the bed and they would just have to flush through a 
sedimentation basin or a polishing pond to collect the aluminum 
or metal precipitate so that it doesn't get--.
    The Chairman. Sediment pond is what you're talking about.
    Mr. Hughes. Yes. A lot of these systems do have that and if 
the discharge doesn't have iron--if the iron isn't coating the 
rocks, which in some cases we have done this in the past and 
that's been some of our failures--is we've put limestone rock 
in discharges that were heavily impacted by iron and they 
armored the limestone and made it virtually ineffective--or 
maybe 20 to 30 percent effective to actually produce a higher 
pH and adding alkaline generation to the water. I think we've 
learned from the past not to do with that high iron discharges. 
We generally--.
    The Chairman. You take out the aluminum and anything else.
    Mr. Hughes. You take out the aluminum and some other trace 
metals. As long as we have a flushing mechanism to get out the 
precipitate.
    Mr. Sherwood. They covered the limestone rock. It was a 
very hard limestone rock, so it wouldn't dissolve, with an 
inner material that was waste from the horse manure and 
mushroom beds and they used that to filter the sun to keep from 
destroying the rock.
    The Chairman.
    Mr. Kanjorski. Thank you. I'll direct it to, I guess, Alex 
and to Dr. Klemow. Can you give us some examples of--the 
Committee some examples of the successes we've had in the last 
year in some of the projects of the GIS consortium because I 
think the Chairman--GIS is another word that's out there. Tell 
us about the GIS.
    Mr. Rogers. The GIS system, Geographic Information System, 
has all--takes information from many different sources and 
combines them in one data base. I mentioned topography, 
vegetation. We do this with remote sensing and digitizing 
information. We've then taken that information--we've already 
put the shovel into the ground--and Ken has worked on this in 
the Earth Conservancy land where we have taken acid mine 
drainage sites, we have the GIS information about those sites 
and then we've invested in very innovative technology--some of 
which Robert's alluded to--to clean up. But, Ken, you have 
those results on the tip of your tongue. Why don't you give the 
Chairman some of the numbers--how we've reduced the iron 
content and aluminum in the water.
    Mr. Klemow. We have. We have two wetlands that are in 
place. The first was a demonstration site and that was about 
one-third of an acre and that was just to show that the 
wetlands can be used to removed iron in the anthracite region. 
That has never been shown before.
    But right now probably the best site that we have is the 
second site which is the one that's located again in Hanover 
Township. And for that one we're actually pumping water up out 
of the mines because hydrologically we just couldn't get the 
wetlands down stream--in fact, again when you talk about some 
of the problems with legislation and the current rules, we have 
an idea for putting the wetland actually next to an existing 
crater and actually we have lessons of the army core of 
engineers and the Pennsylvania Department of Environmental 
Protection--but we just felt that doing the permitology on the 
whole thing would take maybe two to 3 years that we just didn't 
have so we decided to go a slightly different location uphill 
and therefore we have to pump the water uphill. Basically we're 
pumping 500 gallons per minute. And the thing that is 
interesting is that we're directing the water through an 
aeration system--it's never been attempted before--which forces 
oxygen into the water and that gets the chemical reaction to go 
a lot quicker. And basically what we do is we get the iron to 
chemically oxidize and so once it's oxidized, we filter it 
through a bed of plants in the wetland and the plants are very, 
very good at removing the iron.
    So the thing that was interesting is that we didn't really 
know when we started this project--when we turned on the 
switch, you know, last April or May I guess it was--would it be 
5 percent successful, 50 percent, you know, 80 percent 
successful, and over the past 5 months I've had a student take 
readings on a monthly basis and we've been removing, as I say, 
somewhere between 96 to 98 percent of the iron which again 
accounts for about 300 pounds of iron per day.
    The Chairman. You were going to do this next to a creek? 
You were going to do that but there was some question about the 
permit process?
    Mr. Klemow. We were concerned about the permitology 
possibly holding us up.
    The Chairman. Second, is the creek contaminated now with 
the iron, et cetera, et cetera?
    Mr. Klemow. Yes, and the answer is because we cannot treat 
all of the water coming out of the bore hole because we just 
don't have enough area.
    The Chairman. It would seem to me if you could expand that 
area and treat that area with your methodology we ought to be 
able to expedite the permitting process. To me this makes more 
sense than putting an artificial project in.
    Mr. Kanjorski. Mr. Chairman, if I may add--this is an 
excellent point. When you do this comprehensively by getting an 
inter-agency agreement on the Federal level and on the state 
level, you will be able to put these people right into the spot 
so you won't go through what we call the malaise of bureaucracy 
of permitting. And instead of wasting years and thousands and 
thousands of dollars, these people can go right to work and 
solve the problem. They have the technology to do it.
    The Chairman. Can we make up a larger area to take the 
water we want--.
    Mr. Kanjorski. Yes.
    The Chairman. What we want to do is purify the water. Or 
not purify it. We want to take the best of it so the good 
stuff.
    Mr. Klemow. Right. But we don't just have the money right 
now to do it. There's no agency I know of to pay for it.
    The Chairman. Tim, do you have any questions?
    Mr. Holden. No.
    Mr. Sherwood. Thank you, Gentlemen.
    The Chairman. I have been very, very impressed. I think 
that we ought to explore this more to see if we can't do 
something along those lines to get the water clean. My 
interest, for your information, is primarily the water and the 
municipalities. And one other question, you talked about the 
conservancy lands. Now, who owns that?
    Mr. Kanjorski. Earth Conservancy.
    Mr. Rogers. It's a nonprofit organization.
    The Chairman. What are you going to do with the land if you 
reclaim it? Is it just going to go wild or are you going to let 
it be available for the communities?
    Mr. Rogers. Well, the organization started with a very 
extensive land use planning. They're going to preserve it and I 
think about 10,000 acres in open space for recreational 
purposes. Some of it is being used for industrial development 
or residential development. Always the objective is to convey 
the land back depending upon who the owner will be. So in the 
case of industrial development, it's to convey it to the local 
chamber of the municipality so that industrial development can 
occur on that section but that for the 10,000 acres that will 
remain open space.
    Mr. Kanjorski. They are in the process now of building a 
2,000 acre multipurpose park and that will take the industrial 
parks, the technical sites, both housing and the first really 
comprehensive industrial--.
    The Chairman. And that will help support the other 10,000 
acres.
    Mr. Kanjorski. You bet it will.
    Mr. Klemow. In my essay I discuss smart reclamation at 
present, we find a site, we level it and sow it with grass 
seed. I think what we do need to do is have a better method of 
trying to target what the ultimate use of the site is and then 
directing the restoration effort toward whatever the ultimate 
site is and that is where GIS is really going to help us.
    Mr. Kanjorski. And Earth Conservancy, Mr. Chairman, has 
been an operating organization for about 6 years now so really 
it's a model taking 17,000 acres of land and doing many 
different things with it to prove all the things that we're 
talking about that we want to do comprehensively on 120,000 
acres. We pretty much have a feel and an experience now of 6 
years of how to do this, everything from making wetlands to 
reclaiming the mine lands into industrial park areas into 
making recreational preserve areas. It's all there and it's 
already been done so what we're really talking about is saying 
let us build off that model and multiply that model six or 
seven times and we will be able to effectively and efficiently 
reconstruct the anthracite coal fields of Eastern Pennsylvania 
in their entirety within a 25 year period.
    The Chairman. I'll make a suggestion, and it's probably out 
of whack here, but you might want to consider selling some of 
my sportsmen groups on this idea for wildlife rehabilitation 
too. I know that some people say that's a bad word. I hope it's 
not in Pennsylvania.
    Mr. Kanjorski. No. We're building a duck area.
    The Chairman. A duck area, deer, rabbits, squirrels, 
whatever you want to do, because then you get another group 
of--category that's supporting what you're doing, I've noticed 
there's been a tendency especially on the Federal level to 
downgrade that effort and I don't think--that's not only not 
incorrect but I think it's a terrible way to help what we call 
managed land. If you're going to have it, you ought to get more 
support because--that's just a comment.
    Mr. Klemow. If I may, in the western part of Pennsylvania, 
there's actually an organization called AMD and ART. They 
incorporate large landscape architecture techniques into mine 
drainage restoration projects. They actually create what they 
call ``places'' where people can actually go and want to be at 
for recreation and hiking and other things like that. Again, I 
think that's something we ought to be looking at in this area.
    The Chairman. Well, again, thank you gentlemen. It's been 
very informative. I thank the audience, those that stuck with 
us for these 3 hours. And I am going to congratulate my Members 
for being on time. Mr. Sherwood, thank you for doing this. Mr. 
Kanjorski, thank you very much. And, Mr. Holden, thank you very 
much. Pennsylvania, I want to thank you--or the Lackawanna 
area, we're in good shape so thank you very much. This 
Committee--the record will be open for 10 days if anybody would 
like to submit any written testimony to the Committee.
    [Whereupon, the committee was adjourned.]

</pre></body></html>
